<html>
<title> - CRIMINAL JUSTICE REFORM AND EFFORTS TO REDUCE RECIDIVISM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        CRIMINAL JUSTICE REFORM AND EFFORTS TO REDUCE RECIDIVISM

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2017

                               __________

                           Serial No. 115-28

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
             
             
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-561 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5631263916352325223e333a267835393b78">[email&#160;protected]</a>              
             
              
             
             
             
             Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna General Counsel
                      Sean Brebbia, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2017....................................     1

                               WITNESSES

The Hon. Tim Scott, Senator from South Carolina
    Oral Statement...............................................     1
The Hon. Cory A. Booker, Senator from New Jersey
    Oral Statement...............................................     4
    .............................................................
Mr. Bryan P. Stirling, Director, Department of Corrections, South 
  Carolina
    Oral Statement...............................................    14
    Written Statement............................................    17
Pastor Omar Jahwar, Founder and CEO, Urban Specialists
    Oral Statement...............................................    92
    Written Statement............................................    94
Mr. William C. McGahan, Chairman, Georgia Works!
    Oral Statement...............................................    99
    Written Statement............................................   101
The Hon. Alexander Williams, Jr., Center for Education, Justice 
  and Ethics, University of Maryland
    Oral Statement...............................................   104
    Written Statement............................................   106

                                APPENDIX

July 13, 2016, CNN ``Black Senator Describes Facing Unfair 
  Scrutiny by Police'' submitted by Ms. Norton...................   140
Representative Elijah E. Cummings Statement......................   142
Letter of June 28, 2017, from Justice Roundtable, submitted by 
  Mr. Connolly...................................................   144
Letter of June 27, 2017, from Families Against Mandatory 
  Minimums, submitted by Mr. Connolly............................   149
Letter of June 28, 2017, from The Sentencing Project, submitted 
  by Mr. Connolly................................................   151

 
        CRIMINAL JUSTICE REFORM AND EFFORTS TO REDUCE RECIDIVISM

                              ----------                              


                        Wednesday, June 28, 2017

                   House of Representatives
               Committee on Oversight and Government Reform
                                                     Washington, DC
    The committee met, pursuant to call, at 1:03 p.m., in Room 
2154, Rayburn House Office Building, Hon. Trey Gowdy [chairman 
of the committee] presiding.
    Present: Representatives Gowdy, Duncan, Jordan, Amash, 
Gosar, Foxx, Massie, Meadows, Ross, Walker, Blum, Hice, 
Grothman, Hurd, Palmer, Comer, Mitchell, Maloney, Norton, Clay, 
Lynch, Connolly, Kelly, Lawrence, Watson Coleman, Plaskett, 
Demings, Krishnamoorthi, Welch, and DeSaulnier.
    Chairman Gowdy. The Committee on Oversight and Government 
Reform will come to order. This is a hearing on criminal 
justice reform and efforts to reduce recidivism.
    We are pleased to have two of our friends from the other 
side of the Capitol, and my friend from Virginia has graciously 
agreed to defer his opening statement so we can hear from you 
first.
    It is my pleasure to introduce first the Senator from South 
Carolina, and then the gentle lady from New Jersey will 
introduce Senator Booker.
    Senator Scott was sworn into the U.S. Senate in January 
2013 and has been a strong advocate for smart, effective 
criminal justice reform. He has supported a variety of criminal 
justice reform legislative initiatives and has launched his 
Opportunity Agenda, which is a new way forward that includes 
robust initiatives to give our students and workers a chance to 
succeed.
    Senator Scott, on a personal note, I want to thank you for 
everything you have done in this realm in South Carolina. It is 
not something we are often asked about back home, criminal 
justice reform, and for you to take a leadership role on this 
to both elevate it to a higher level of public consciousness 
and to advocate for it says a lot about your commitment to it 
and your character.
    With that, you are recognized; and then we will go to Ms. 
Watson Coleman for Senator Booker.

                       WITNESS STATEMENTS

                     STATEMENT OF TIM SCOTT

    Senator Scott. Thank you, Mr. Chairman; and to the members 
of the committee, it is good to be back on the upper side of 
the chamber. Thank you very much for allowing me to come back. 
It is good to see old friends that I had the privilege of 
serving with, particularly my friend Ms. Norton on the Rules 
Committee. We enjoyed our long hours working through the 
wonders of committee life in the House.
    I would also like to say to Chairman Gowdy congratulations 
on your chairmanship, and I am certain that you will make 
America proud as you search for the truth, wherever it may take 
us.
    I want to thank Senator Booker, who has been my friend and 
champion on a number of issues that we have both championed 
together, from my Opportunity Agenda, from working on ways to 
reinvest in distressed communities, to criminal justice reform, 
to apprenticeship programs. He has been a true champion for the 
people on a number of initiatives that go far beyond my agenda, 
and it is good to have him here with us today.
    Criminal justice reform is a critical topic facing our 
nation as a whole. Today's hearing is focused on recidivism and 
reentry programs, and I would like to spend a few minutes on a 
broader topic first, the topic of incarceration as a whole.
    What is the best way for us to reduce recidivism? To ensure 
people from all walks of life and from every single community 
have access to opportunity. For too many, and specifically 
communities of color, this is simply not the case. The poverty 
rate among blacks and Hispanic Americans is between two and 
three times higher than the majority population. Nearly a 
quarter of the children who live in poverty do not graduate 
from high school, compared to just 6 percent of those kids who 
never lived in poverty. Seventy-eight percent of those in 
prison do not have post-secondary education. They did not 
graduate from high school.
    What does that mean? In 2010, a person who did not graduate 
from high school had an income of around $19,000. The person 
who graduated from high school had an income of around $28,000. 
Graduated from college? Fifty-two thousand dollars.
    Black and Hispanic dropout rates are consistently higher 
from 1963 to the year 2012. The annual black unemployment rate 
for this nation was around 11.6 percent. To put that in 
perspective, during all the recessions that happened during 
those 50 years or so, the average unemployment rate for the 
entire nation was around 6.7 percent. Very different patterns.
    More black and brown children grow up in poverty. More do 
not graduate from high school. More earn less and are 
oftentimes employed less.
    As you, Chairman, and so many others have heard my story as 
a kid growing up in a single-parent household who flunked out 
of high school as a freshman, I understand intimately and 
personally what these statistics translate to in the real 
world. It translates into a pipeline that too often leads to 
incarceration, a pipeline that too often leads to low 
expectation of oneself, and a pipeline that too often 
reinforces the negative stereotypes that are pervasive in our 
society. And the impact that it has on the human condition is 
tremendous, and it is consistently negative.
    I believe that those are some of the reasons why black men, 
men like myself, are incarcerated at a rate six times higher 
than men that look like you. This is an epidemic that we have 
to wrestle with as a nation, as one American family working 
together to find solutions that work for everyone in every 
place, no matter where they started. The concept of opportunity 
as a solution for incarceration is something that is real, it 
is measureable, and it is something that I have lived, 
thankfully, through.
    While we must find ways to promote and lower recidivism 
rates, I want us to continue to focus on opportunity, improving 
our education system, encouraging entrepreneurs and small 
business owners to grow and invest in low-income communities. 
This can solve a lot of problems and specifically prevent the 
conversation of recidivism.
    I have had an opportunity to sit down with quite a few 
organizations to talk about reducing recidivism. I visited a 
few state prisons in South Carolina with Bryan Stirling, who I 
am happy to see, the Director of our Corrections Institute, 
will be on the next panel. One such program I visited is called 
Turning Leaf, located in Charleston, South Carolina, run by Amy 
Barch. She has a recidivism rate of 18 percent, when our 
national average is closer to 70 percent, and she deals with 
only the most difficult inmates.
    Another program is called Proverbs 22:6, which works 
throughout both South Carolina and North Carolina to help 
reconnect inmates with their families. My chief of staff and I 
visited both Kershaw and Lee County correctional facilities 
with Proverbs 22:6 founder Cyril Prabhu, and what we 
experienced that day was the reconnection of inmates with their 
children with a program that transforms the life of the inmate 
and gives him a reason to believe that the future can be 
different. To watch the reunification of family after we served 
them lunch and spent a couple of hours talking with them was 
one of the most moving experiences I have had in my life, and I 
understood why the success of the recidivism program Proverbs 
22:6 has been so powerful in the lives of these inmates.
    Here is a statistic that we should pay attention to, and 
this is why Proverbs 22:6 is so important: 82 percent 
probability for a child whose parent is in prison to end up in 
prison. Let me say that one more time. If a child has a parent 
in prison today, there is an 82 percent probability that that 
child will end up in prison. Working to reconnect families is 
one of the ways that we can reduce recidivism.
    What is the recidivism rate for the Proverbs 22:6 program? 
Six percent. Six percent. Since 2012, the number of children in 
the program has gone from 800 to 5,000 children whose parents 
are incarcerated in 10 different prisons.
    I was in California last weekend meeting with programs in 
California, the Bridge Academy, that basically fills the gap. 
So they do not replicate any existing programs. They simply 
connect not the inmate but the entire family to the programs 
and resources that are already available. They make them aware 
of them, they make sure they attend, and through an 18-month 
process their recidivism rate is zero.
    There are ways for us to improve public safety, reduce 
recidivism, and restore families and the American Dream for 
people who have lost hope. I look forward to the national 
debate that must continue on this very important topic. I know 
that I am running out of time. As you know, we in the Senate 
cannot necessarily tell 5 minutes of time. We anticipate that 
you will give us 10 minutes or an hour. That might be too long.
    Let me just say that your commitment, Mr. Chairman, the 
committee's willingness to hear the testimonies, ask questions, 
is a very important part of what we can do to help restore the 
American Dream for so many people in so many dark places that 
have lost hope. I want to thank you again for holding this 
important hearing. My door will remain open to work with anyone 
from anywhere at any time to address this very important issue.
    Thank you, Mr. Chairman.
    Chairman Gowdy. Thank you, Senator Scott.
    We will now recognize Ms. Watson Coleman from New Jersey to 
introduce our friend, Senator Booker.
    Ms. Watson Coleman. Thank you, Chairman, and 
congratulations on your appointment. I look forward to working 
with you in a bipartisan way on issues as important as this.
    Welcome, Senator Scott. It is good to see you, and it is my 
pleasure today to introduce my friend and fellow New Jerseyan, 
Senator Cory Booker. Senator Booker was elected to the United 
States Senate in 2013 and since then has established himself as 
an ally for what is right. As an innovative and bipartisan 
problem-solver, Senator Booker is committed to developing 
collaborative solutions that address some of our most complex 
challenges.
    He has fought for New Jersey resources, whether it is for 
Super Storm Sandy victims, the transportation system, or just 
to keep our community safe. He has been actively engaged in the 
pursuit of justice and opportunity for our citizens, 
particularly those who have been incarcerated and for whom we 
expect a second chance.
    As a member of the State Legislature, I worked with then-
Mayor Cory Booker on many initiatives around criminal justice 
reform and second-chance opportunities, and I have witnessed 
his steadfast commitment to those issues here in the Senate.
    So it is a proud day for me to be able to recognize him, to 
welcome him to OGR, and to give him this opportunity to share 
his thoughts and his vision to this end.
    Thank you, Mr. Chairman. I yield back.
    Chairman Gowdy. Senator Booker?

                    STATEMENT OF CORY BOOKER

    Senator Booker. Mr. Chairman, please know that this is a 
moment for me that I could not have dreamed of, that Bonnie 
Watson Coleman and I, when we were just local politicians, 
never imagined that she and I would be in the Capitol together 
serving as congress people together, and it is an honor to have 
that privilege, and I thank you for affording me that.
    Mr. Gowdy, I just want to put it out there right away, you 
have been a gentleman, somebody of honor in working with me on 
these issues. I have come to have a deep respect for you, and 
you are somebody who I now have on speed dial and have been 
just grateful for your interest in this issue and your 
willingness to work so hard on it.
    Please allow me a moment just to say my prayers are with 
Elijah Cummings. He is recovering, I know. There is no physical 
ailment that is tougher than he is, and I look forward to 
seeing him back in the chair. But, Mr. Connolly, I am grateful 
that you are standing in his place.
    I want this committee to know about my personal 
experiences. I grew up in an incredibly nice town in the 
Northern New Jersey suburbs as a result of blacks and whites, 
Republicans and Democrats who actually came together and fought 
for my family to be the first black family to move into town. 
We had to get a sting operation and have two white people pose 
as my parents after they were told the house was sold to 
actually get the house. On the day of the closing, the white 
couple did not show up. My father did, and a volunteer lawyer 
named Marty Freidman, the real estate agent, attacked my 
father's lawyer, put a dog on my dad after a whole bunch of 
legal rigmarole. We were able to get access to this town and 
become, as my father affectionately called us, the four raisins 
in a tub of sweet vanilla ice cream.
    [Laughter.]
    Senator Booker. I grew up in this town--a town of 
affluence, this town of incredible opportunity and incredible 
public schools--until I was 18 years old, went off to Stanford 
University, Oxford University, Yale University, to the point 
where my father's frustration told me, boy, you have more 
degrees than the month of July, but you ain't hot. You have to 
do something for your country.
    I made a decision at that point to move, really following 
the calling of a great American prophet. Some of you may have 
studied him in graduate school, Chris Rock. I moved onto the 
south end of Martin Luther King Boulevard. Chris Rock says why 
is it that often the most violent street in many cities is 
named for the man that stood for non-violence?
    Martin Luther King Boulevard in Newark actually is a great 
testimony to King, even in the 1990s when I first moved there, 
with some of the greatest educational institutions New Jersey 
has. But the south end of that street was in very difficult 
shape.
    It has been 20-plus years. I still live in that 
neighborhood. I have 99 colleagues--it sounds like the 
beginning of a rap song, but I have 99 colleagues, and I will 
tell you this, I might be the only one that lives in a 
community that is below the poverty line. The median income is 
$14,000 per household. It is a black, mostly black, majority 
black, black and Latino inner city.
    And I sit here with passion to the folks before me to let 
you know that I have witnessed this country's failure to live 
up to its promise that is written on the Supreme Court wall 
that says ``Equal Justice Under Law.'' I have seen with my own 
eyes, experienced with my own friends, there is no difference 
in America between blacks and whites and Latinos and Asians in 
drug use, no difference whatsoever. When I was at Stanford's 
campus there was a whole lot of drug use going on, but the drug 
laws in this country are enforced disproportionately against 
people of color. If you are black in America, you are almost 
four times more likely to be arrested for using marijuana, for 
using more serious drugs, or for dealing them.
    And I say this in the beginning of my remarks to make this 
understanding that there is something seriously wrong in this 
country that we have gone so far off the rails that we have 
defined ourselves as the greatest civilization in all of 
humanity for locking up its own people disproportionately for 
non-violent drug crimes, often for crimes that two of the last 
three presidents admitted to doing. Remember, they did not talk 
about just some marijuana usage. It was felony drug use and 
drug possession.
    And what hurts me is that while we as a nation were 
disinvesting in our infrastructure--remember, we inherited from 
our grandparents the greatest infrastructure on the planet 
Earth. The World Economic Forum in my daddy's age ranked the 
infrastructure of the United States the number-one in the 
world. Now the World Economic Forum ranks us out of the top 10.
    But there is one area--and I have traveled around the 
globe, like many of you have. There is one area that even 
leaders in other countries stopped and asked me about that we 
have built our infrastructure in that puts the rest of the 
world to shame. Between the time I was in law school and the 
time I became Mayor of Newark, New Jersey, we in this country 
were building a new prison every 10 days, hundreds and hundreds 
of billions of dollars, incentivized by us here in the Federal 
Government to build out the largest prison industrial complex 
on the planet Earth and to imprison more people within our 
country than humanity has ever seen, 4 percent of the globe's 
population, one out of every five imprisoned people on the 
planet Earth.
    And the people we imprison is stunning. We take the most 
vulnerable people in our population, not the privileged who 
grew up in places like my home town, or the people who go to 
Stanford and Oxford and Yale, who use drugs at the same rates, 
but we imprison the most vulnerable. Overwhelmingly, we 
imprison the poor. Overwhelmingly, we imprison the mentally 
ill. Overwhelmingly, we imprison the addicted. Overwhelmingly 
or disproportionately--excuse me--we imprison people of color.
    And it was startling for me, jarring for me, having lived 
20 years in places of privilege and 20 years in my phenomenal 
city, to see how the criminal justice system is tearing apart 
communities, enforcing poverty.
    There is a college study that came out, a university study 
that came out that said the United States of America would have 
20 percent less poverty, 20 percent less poverty today if we 
had incarceration rates just like our industrial peers.
    In fact, we know why. The American Bar Association points 
it out. Because that 17-year-old kid caught in Newark, New 
Jersey for doing things that maybe a third of Congress has 
done, who pleads to a felony count--and, by the way, our 
criminal justice system is no longer--and you know this, Mr. 
Chairman--is no longer juries, no longer judges. Ninety-eight 
percent of our criminal convictions are now done by plea 
bargain. So a kid who is now facing mandatory minimums stacked 
on top of each other versus taking a plea and getting right out 
of jail, now that 17-year-old faces, according to the American 
Bar Association, 40,000 collateral consequences, cannot get a 
Pell Grant, cannot get a business license, cannot get a job, 
cannot get food stamps, cannot get public housing, in many 
places cannot vote.
    So we have a system now that is so broken that it has 
nothing to do with the ideals we hail of liberty and justice, 
and that is what frustrates me, because now I found 
partnerships with people all across the political spectrum who 
understand that this is an American shame. I never thought when 
I came to Washington that the Koch Brothers' general counsel 
would become a dear friend of mine, Mark Holden, because of our 
partnership on these issues; that Newt Gingrich, Grover 
Norquist, Christian evangelical leaders across the country, 
libertarians, fiscal conservatives, even the other bald black 
guy in the Senate, Tim Scott.
    We are united in this cause to see that this is one of the 
great shames in our country, and it is crushing communities 
like the one in which I live, like the one in which the 
congresswoman is from. And if there is injustice that Langston 
Hughes called what happens to a dream deferred, what happens 
when certain communities do not benefit from the liberties and 
the ideals of this country in ways that they themselves begin 
to lose faith in the promise of America?
    I will tell you this: I was in yet another Federal lockup. 
It was a women's prison in Connecticut, just last month, and I 
walked in and I asked the warden, this strong, great leader, I 
asked her what percentage of the women in this prison have been 
victims of sexual trauma, of sexual assault, of violence? And 
this warden turns to me and says about 95 percent of the women 
are victims of sexual assault.
    I visited a Federal prison in New Jersey and I asked the 
warden there how many folks here have been here too long, are 
no threat to our society, our taxpayers are wasting their 
dollars on, and he just started laughing. He said, Cory, too 
many to count.
    You see, we have lost our way. It is not like we are 
looking for restorative justice. It is not like we are looking 
for the ideals of this country. Our criminal justice system is 
built up for retribution. And the beauty of this moment in 
American history is that there are enough examples--you heard 
them from Senator Scott--that show us a different way.
    We see state after state demonstrating the truth. We can 
actually make our states safer. Public safety should be number 
one. There are ways to make our states safer, save taxpayer 
dollars, elevate human potential, take care of the weak, and 
drive what we should be driving toward in the society, where we 
give our children more solid ground on which to thrive.
    So in the United States Senate, I am proud that we cobbled 
together a bill. Chuck Grassley and Dick Durbin together on a 
bill, Mike Lee and Ted Cruz and myself and Senator Whitehouse 
together on a bill. What worries me is that my colleague, a man 
whose character I have never maligned, a man, Jeff Sessions, 
who served with dignity, a man who I stood with and gave medals 
with to the marchers on the Edmund Pettis Bridge, that on this 
issue he is so wrong. He wrote recently that we should turn 
back the reforms we were starting to make in the Justice 
Department, and that we should go back to punitive sentencing, 
the most harsh possible.
    Well, that will cost taxpayer money. That will not be a 
pursuit of justice. It may be law and order, but everyone here 
who loves and savors democracy has seen enough totalitarian 
states establish law and order but lack justice.
    So I call upon this committee, my brothers and sisters who 
savor liberty as much as I do, who love this country and her 
ideals as much, if not more, than I do, let us not let this 
dream be deferred in our country any longer. I want to tell you 
right now that there is the Sentencing Reform and Corrections 
Act, but there are other things as well.
    I had my first-ever bipartisan, bicameral bill done with 
this committee. Elijah Cummings and Darrel Issa joined me and 
Ron Johnson in the Senate on just a simple step. We 
reintroduced the bipartisan Fair Chance Act, a bill that would 
make a dramatic difference in just someone coming out of prison 
getting a job. We call them Ban the Box bills that have been 
done all across this nation, so-called Red States, so-called 
Blue States. In fact, Walmart, Home Depot, Starbucks have all 
done this. But the biggest employer in our country, the Federal 
Government and its contractors, has not done this.
    This is about making sure that it is striking the right 
balance. It is a bill that allows returning citizens to get 
their foot in the door and be fairly considered for jobs, while 
allowing employers to know who they are hiring.
    There are so many brilliant ideas out there. Senator Scott 
pointed them out. We did them in shoelaces and bubble gum in 
Newark where we showed that we can drive recidivism down, 
elevate human life, bring the wardens in from our Federal 
penitentiaries. The ones who I have gone around and talked to 
all know what we are doing is terribly wrong, all know 
commonsense things that we can do to make it right.
    So I encourage this committee. The worst type of privilege 
in America, the most insidious type of privilege, is to know 
that there is a serious problem out there that is tearing apart 
communities, that is hurting Americans. The most insidious type 
of privilege is knowing that there is a serious cause out there 
but it does not affect me or my family, and therefore it is not 
that important or urgent. The biggest cancer on the soul of our 
country right now is the American criminal justice system, and 
we can make it right.
    I want to end again with Langston Hughes. He said very 
simply that there is a dream in this land with its back against 
the wall. To save the dream for one, we must save the dream for 
all. I do not know what Leader McConnell's plans are this week, 
but I will probably be going back to Newark on Thursday 
evening. On my block there are incredible kids, kids with the 
same amount of genius and potential--in fact, more so--than I 
had growing up in a very different community. It is hurtful 
that I know the percentages for those children.
    If you are black born in America today, you have a one in 
three chance of going to prison. That is a stunning statistic. 
And even worse than that, if you are a black kid in America--
you heard the data--your chances of having an adult in prison, 
a parent in prison, is dramatic. In fact, for all kids it is 
one in 28 of your children right now have a parent that has 
served in prison.
    This is not the America for which we dream. This is the 
dream with its back against the wall. We can do something about 
this. We must do something about this, and I know my 
colleagues, with a sense of urgency and patriotism and, dear 
God, with a sense of love, I know this Congress in this 
bipartisan way, that we the people can change our country and 
make, as my dear brother says in Bible study, we can make 
justice roll down like water and righteousness like a mighty 
stream.
    Thank you.
    Chairman Gowdy. On behalf of all of us, we want to thank 
Senator Scott and Senator Booker not just for your public 
passion but also for your private commitment that has 
demonstrated itself over the course of the last several years. 
So, thank you.
    We will stand in recess ----
    Ms. Norton. Mr. Chairman?
    Chairman Gowdy. Yes, ma'am?
    Ms. Norton. A point of personal privilege. I would like 
something to be entered into the record. I want to thank both 
senators for coming.
    Senator Tim Scott never spoke of an incident or incidents 
that are relevant to this hearing because that is typical of 
him not to speak of something that is relevant that relates to 
him even though it relates to everyone else. And I am going to 
ask to be put into the record an article from CNN.com, ``Black 
Senator Describes Facing Unfair Scrutiny by Police,'' where 
Senator Tim Scott did something that he said was the most 
difficult when he gave a speech because it was the most 
personal.
    He described how he had been stopped seven times by law 
enforcement here, I believe, in the District, on Capitol Hill. 
It was my friend, Mr. Clay, who brought this to my attention. 
He said but the vast majority of the time I was pulled over for 
nothing more than driving a new car in the wrong neighborhood 
or some other reason just as trivial.
    Mr. Scott has been pulled over for stealing the car, 
accused of stealing the car he was driving in. He described the 
plight of a former staffer who sold his ``nice car'' because he 
was so tired of being targeted by suspicious police. In the 
same speech on the Senate floor, Senator Scott praised the 
police for the dangerous lives they lived and complimented them 
on the work they do. That is the kind of man Senator Tim Scott 
is, and I ask that that be put into the record.
    Chairman Gowdy. Without objection, and obviously I agree 
with everything you said, Ms. Holmes Norton. I think he is 
planning on including that in his memoir, and so he was hoping 
that you would buy the book and read those stories as opposed 
to doing it in a newspaper article.
    Mr. Connolly. Mr. Chairman?
    Chairman Gowdy. Yes, sir.
    Mr. Connolly. I just want to thank our two witnesses. I 
have not heard more eloquent statements, and bipartisan, about 
our criminal justice system and its many failures and the 
consequences in human lives, and the scar on our country. I 
want to thank you both because I think it is a great way to 
begin this hearing. Thank you.
    Chairman Gowdy. I thank the gentleman from Virginia.
    They called votes.
    Thank both of you.
    We will be in recess, subject to the call of the Chair.
    [Recess.]
    Chairman Gowdy. The Committee on Oversight and Government 
Reform will reconvene. Without objection, the Chair is 
authorized to declare recesses at any time.
    I want to thank our four witnesses for your patience with 
our vote series. The gentleman from Virginia and I will give 
our opening statements, and we will recognize each of you for 
your opening statements, and then we will start the 
questioning.
    This hearing is on one aspect of our criminal justice 
system. I want to say another thank you to our two senators who 
were with us, and I want to thank two people who are not with 
us today. One is Elijah Cummings, for his commitment to 
criminal justice reform, which is a commitment that has spanned 
three decades. Mr. Cummings and I have spoken about today's 
hearing several times, and he very much wanted to be here. He 
will be back soon, and we will continue to explore this topic 
particularly within the jurisdiction of intergovernmental 
cooperation.
    I also want to thank Bob Goodlatte, who is the Chairman of 
the Judiciary Committee. Criminal justice reform is ostensibly 
an issue within the jurisdiction of that committee. Chairman 
Goodlatte has been very gracious and accommodating in allowing 
us to go forward even as he and his committee do the very same. 
And the reason is there are at least two committees in the 
House that are exploring our criminal justice system, because 
it is so vital to the strength and longevity of our republic.
    Our justice system must be both respected and worthy of 
respect. Our justice system must both be fair in reality and 
perceived as fair. Our justice system must be proportional. It 
must protect the innocents. It must punish those who have not 
conformed to societal norms, with those societal norms being 
reflected and codified in our law.
    Fair, evenhanded, proportional, just, equal in intent and 
application. Those are not merely aspirations, those are 
expectations. They are our expectations for the world's most 
envied justice system.
    I guess ``blind'' is the word that most of us use to 
associate with justice. Justice is blind. It is blind to race. 
It is blind to gender. It is blind to status. It is blind to 
wealth. It is blind to everything other than the merits of the 
relative arguments.
    In reality, Lady Justice, who is the mythological 
personification of our aspirations and expectations, is not 
blind. She is blindfolded. She can see. She just affirmatively 
chooses not to see who or what is before her. That is really 
hard. That requires discipline. It requires restraint. Lady 
Justice may not look, but that should not keep us from doing so 
to make sure that our justice system is as perfect as mortals 
can make something.
    A significant percentage of our fellow citizens have some 
criminal history. And the overwhelming majority of those 
currently incarcerated will be released from confinement when 
the sentence is completed. What do we do when the sentences 
imposed have been served, the debt to society paid, the 
offender is reentering society? There are familial obligations 
to be met. There are societal obligations to be met. There may 
well be restitution owed to the victims of the previous 
conduct. And what we owe most to the victims is to lower the 
chance that they will be victims again. It is in all of our 
interests these reentries be successful. It is in all of our 
interests these transitions back into society are successful.
    Those leaving incarceration for reentry will often find 
society has changed, sometimes dramatically. There will be 
educational deficits and skills deficits in addition to the 
challenge of overcoming the stigma of a conviction.
    Our penal system has several aspects to it. There is a 
punishment aspect. There is a separation from society aspect. 
There is also a rehabilitation aspect, a restoration, if you 
will, a correction.
    We ask the prisons at both the state and Federal level to 
do a lot of things. And as I tell one of our witnesses who is 
my friend and the Director of the Department of Corrections in 
South Carolina, Bryan Stirling, he has the hardest job in all 
of law enforcement. Keep those confined who are supposed to be 
confined. Protect the safety of the women and men working in 
the prisons. Protect the safety of other inmates. Provide 
health care, meals, and make sure those incarcerated are ready 
for reentry. And, oh, by the way, you will only make the news 
if something goes wrong or if there is an escape.
    Today is not about what has gone wrong or escapes. It is 
about hearing what works with respect to reentry, and it is 
about hearing how we can best serve the broader society by 
lowering recidivism. The lower the recidivism rate, the fewer 
the victims there are. The lower the recidivism rate, the lower 
the cost to society.
    Tim Scott is not with us right now, but I want to say what 
I said about him earlier. It is not easy to talk about criminal 
justice reform back home. We are, frankly, not asked about it a 
lot. So for him, it is the dual challenge of both elevating an 
issue to the level of public consciousness and then addressing 
the merits in a respectful way. It takes courage to do that, 
and we are lucky that Tim has that in abundance.
    And I will say this on behalf of Senator Booker, who was 
with us earlier: he not only talks about criminal justice 
reform in open congressional hearings, he talks about it at 
corner tables of restaurants with no one else around. He talks 
about it in private conversations when there is no attention to 
be had. He even talks about it with people with whom he may not 
agree on any other issue, which demonstrates a level of 
commitment that is necessary to effectuate change.
    There is nothing more disheartening than to hear our fellow 
citizens express distrust or disrespect for our justice system. 
When all the other institutions of society are challenged, the 
justice system should be the one that we can run to. To 
paraphrase from an old hymn, the ground at the foot of the 
courthouse is level. We should have confidence in the justice 
process from the moment we enter the courthouse until the debt 
is paid and the correction is complete.
    I look forward to hearing from our witnesses today on how 
we can help those reentering society, what works, what does not 
work, and how we can bolster confidence in this realm of our 
justice system.
    And with that, I will recognize my friend from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. First of all, let me 
congratulate you and welcome you in your debut as our new 
chairman. I think speaking for all of the Democrats, we look 
forward to working with you and trying to find common ground as 
much as we can.
    Parenthetically, let me make a note, however. House Rule 
10, Clause 4, authorizes this committee to, quote, ``at any 
time, to conduct investigations on any matter without regard to 
the jurisdiction of another standing committee.'' Under the 
Obama Administration, God knows, this committee never hesitated 
to exercise its proud authority, from Operation Fast and 
Furious to Benghazi--by the way, we even sent the retiring 
chairman to Libya on the Benghazi investigation by this 
committee--the IRS, or Secretary Clinton's emails. We conducted 
these investigations while there were parallel, ongoing 
criminal investigations in some cases, and when other 
committees had full-blown investigations that were overlapping 
jurisdictional authority.
    I do not think this committee can unilaterally give up its 
oversight responsibilities with respect to the Russia thing, 
conflicts of interest, or any other matter involving a new 
administration that may come to its attention. Oversight is not 
a matter of our personal or political preferences. It is a 
constitutional and institutional duty.
    Having said that, turning to the subject at hand, I want to 
acknowledge what the Chairman just did, our ranking member. He 
has been a leader on this issue. This is a passion for him 
about criminal justice reform. He sends his regrets but he is 
recovering nicely and he will be back with us, we hope, after 
the recess in July. The Chairman was gracious enough to 
schedule a second hearing, which would then allow Ranking 
Member Cummings, obviously, to participate.
    From my point of view, there are four key principles that 
ought to guide our efforts to ensure that punishments fit the 
crime and that ex-offenders have a real chance to turn their 
lives around.
    First, as Ranking Member Cummings has written, we must 
acknowledge ``that each person's ability to be self-sufficient 
in a law-abiding way is a core pillar of public safety. 
Expanded educational and economic opportunity will make us not 
only more prosperous but safer as a society.''
    Not surprisingly, lack of education and opportunity will 
significantly increase the risk of imprisonment, as we heard 
from our two colleagues in the U.S. Senate. An African American 
man without a high school diploma has a nearly 70 percent 
chance of being imprisoned sometime in his mid-30s. In some 
states, more is being spent on prisons than on higher 
education.
    The President's 2018 budget initiates a unilateral retreat 
on public funding for education, unfortunately. It cuts the 
Department of Education by $9.2 billion, or 14 percent. It 
eliminates teacher instruction grants; enrichment and 
remediation programs that provide extended learning time; the 
public student loan forgiveness program, which helps our 
teachers, firefighters, and public servants repay student 
loans; raids the Pell Grant program and ends Federally-
subsidized student loans. These cuts will hurt our ability to 
fight crime by creating economic and educational opportunities.
    Second, we should not fill our prisons with non-violent 
drug offenders who are no threat to the safety and well-being 
of our communities. When mandatory minimum sentences force 
judges to sentence non-violent offenders, in some cases for 
decades, they not only lose their livelihoods, their children 
and communities bear a devastating loss as well, and we heard 
that kind of testimony from our two colleagues in the Senate 
earlier.
    Alternatives to detention like the Veterans Treatment 
Docket, which I helped work with my local court in Fairfax 
County, have demonstrated success diverting individuals into 
community-based rehab programs, as opposed to automatic, rigid 
jail sentences.
    Third, we must ensure that once individuals have served out 
their sentences, they truly have a second chance to get back on 
their feet. Too often, post-release restrictions leave men and 
women with few opportunities to provide for themselves and 
their families. I commend my own governor in the Commonwealth 
of Virginia, Terry McAuliffe, for actively restoring the 
fundamental right to vote for 156,000 ex-offenders in Virginia. 
He personally signed the orders restoring those rights for 
every one of those people. I hope Virginia can be a model for 
other states to remove impediments that punish ex-offenders 
long after they have served their debt to society.
    Finally, we must acknowledge that our criminal justice 
system has disproportionately had an impact on Americans of 
color. African American men are more than six times as likely 
as white men to be incarcerated. Approximately 37 percent of 
the men in state and Federal prisons are African American men, 
even though the African American population is 13 percent of 
our total population.
    Recognizing the devastating impact of policies like 
mandatory minimums on entire communities, the Obama 
Administration worked to give prosecutors more discretion on 
charging decisions and to commute the sentences of non-violent 
drug offenders. Unfortunately, our new attorney general, 
Attorney General Jeff Sessions, seems to want to turn back the 
clock on policies we feel failed in the past and reimpose the 
imposition of extreme sentences for low-level and non-violent 
crimes. From what he labels being ``soft on sentencing,'' the 
Attorney General has argued for so-called time-tested criminal 
justice practices. The reality is that mandatory minimums and 
other harsh measures have been tested, and they have failed.
    The Trump Administration's budget would also slash the 
Bureau of Prisons, ironically, by a billion dollars, 
exacerbating overcrowding, eliminating nearly 2,000 prison 
guards and 6,000 administrative staff, which I think could 
jeopardize the physical safety of both guards and inmates.
    We do not have to choose between being just or 
compassionate. Smart policies, like those we heard advocated 
for a little earlier in this hearing from our two senators and 
by Congressman Cummings and others on this committee, allow us 
to do both. We can take immediate positive steps for exactly 
that kind of bipartisan reform. Ranking Member Cummings and 
Congressman Issa of our committee have a bipartisan, bicameral 
bill called the Fair Chance Act. It is within the committee's 
jurisdiction, and I hope we can mark it up in the near term in 
one of the markups planned by our new chairman.
    Mr. Chairman, I want to thank you for considering the 
request. I look forward to hearing from our witnesses today and 
look forward to cooperating with you on this very important 
topic.
    Chairman Gowdy. The gentleman from Virginia yields back.
    We will hold the record open for five legislative days for 
any members who would like to submit a written statement.
    We will now recognize our second panel of witnesses. I will 
introduce you and administer the oath en banc, and then I will 
recognize you individually for your 5-minute opening 
statements.
    We are pleased to welcome Mr. Bryan Stirling, who is the 
Director of South Carolina Department of Corrections; Pastor 
Omar Jahwar--and if I mispronounce anyone's name, forgive me--
Founder and CEO of Urban Specialists; Mr. William McGahan, 
Chairman of Georgia Works!; and the Honorable Alexander 
Williams, Jr., former United States District Court Judge for 
the District of Maryland and currently at the Center for 
Education, Justice, and Ethics at the University of Maryland.
    I would ask all of you to please rise and let me administer 
an oath, pursuant to committee rules.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you God?
    May the record reflect all the witnesses answered in the 
affirmative.
    There is a clock or a color scheme that will alert you. 
Just keep in mind that all members have the full body of your 
opening statement, so to the extent that you can summarize it 
in 5 minutes, that will allow members more time for the 
question and answer session.
    With that ----
    Mr. Connolly. Mr. Chairman?
    Chairman Gowdy. Yes, sir.
    Mr. Connolly. Sorry. Just a unanimous request. I should 
have asked earlier. I ask unanimous consent to enter into the 
record a statement by Elijah Cummings on this matter, and 
letters from Justice Roundtable, Families Against Mandatory 
Minimums, and the Sentencing Project, for the record.
    Chairman Gowdy. Without objection.
    Chairman Gowdy. With that, Director Stirling.

                 STATEMENT OF BRYAN P. STIRLING

    Mr. Stirling. Chairman Gowdy--I am used to calling you 
Solicitor. But Chairman Gowdy, congratulations on your new 
position. Ranking Member Cummings, we wish you a speedy 
recovery. Other distinguished members, Mr. Lynch. My 
grandmother was actually born and raised for a time on Dent 
Street, so a lot of my family members are still your 
constituents to this day. Thank you all for this opportunity 
and your interest in criminal justice reform.
    As someone who has spent close to a decade in this arena, 
first as a Deputy Attorney General for the State of South 
Carolina, and now going on three-and-a-half years as the 
Director of South Carolina Department of Corrections, it is 
encouraging that Congress is focused on improving outcomes in 
our criminal justice system.
    I would like to recognize two people that are with me 
today. First of all, behind me is Sandy Barrett. She is in 
charge of programs and services, a lot of the recidivism 
things. And then I have Warden Nena Staley of Manning 
Correctional. I am going to talk about her program in a little 
bit. Warden Staley is also, to brag a little bit--
Representative Duncan earlier talked about Clemson, the 
national championships. I want to talk about South Carolina's a 
little bit. She is sister-in-law with Dawn Staley, who is a 
national championship women's basketball coach at USC.
    I would also like to recognize Mike McCall. He has been a 
warden at several of our prisons around the state, at Lee and 
other places. He has done some great work with recidivism.
    And really I want to recognize all the correctional 
officers and staff from around the country, from South Carolina 
and around this nation who work really hard every day in very 
difficult environments, very under-appreciated, very stressful, 
in my state very understaffed, to keep us safe at night, and 
also to rehabilitate.
    I would like to give a quick overview of the South Carolina 
prison system. As of Monday, we had 20,256 folks incarcerated; 
3,404 of those folks are mentally ill. That is 17 percent of 
our population. I am going to get back to the mentally ill in a 
little bit.
    That number is the lowest since 1997. I know there are some 
folks from Dew here. Senator Malloy in South Carolina and 
others on the Sentencing Reform Committee are responsible for 
that work. Representative Sanford actually signed that into law 
in 2010. In 2016 we admitted 8,798 offenders. We were down 30 
percent from 2010. Our recidivism rate is almost at an all-time 
low of 23.1 percent. We have closed six prisons, and Pew has 
estimated that we have had a cost avoidance of $491 billion. We 
moved from 11th in incarceration per 100,000 to 20th. Our crime 
rate is down.
    A lot of the work that has gone into this has been done by 
Pew, Senator Malloy, Governor Sanford, the innovative programs 
that we have. I will say this: Justice Brandeis did write at 
one time that states are the laboratories for democracy. So 
some of the things I am going to say here may translate to the 
Federal system, and they may not. That will be up to the 
committee to look at in the future.
    One thing I always say, I look at it, is 85 and you. 
Eighty-five percent of the folks who are incarcerated serve 
under five years. So you have a choice, we have a choice as a 
state. I want you to think of a loved one, a family member. Who 
do you want sitting next to them at a coffee shop? Who do you 
want sitting next to them in church? Who do you want sitting 
next to them at school? Someone who has been warehoused for 
three to five years and fed three times a day and given 
constitutionally adequate medical care, or do you want someone 
who has been connected to their family, mental health 
treatment, has the skills, has a job, they know how to deal 
with anger issues and know how to perform as a citizen? That is 
a choice we have as a state. That is a choice we made in South 
Carolina. I think you are seeing the results of it now.
    A couple of programs. We do CIU, Columbia International 
University, associate arts degree. We have Northeastern Tech. 
We have a lot of jobs coming to South Carolina, a 4.1 percent 
unemployment rate, which makes it difficult to hire 
correctional officers, but it makes it really easy to get folks 
hired.
    SC Thrive. We try to hook people up with services when they 
leave.
    One of the things Governor Haley and Director Cheryl 
Stanton of DEW said to me is these folks are coming out, we 
need to get them jobs, jobs agency corrections, 900 people a 
month are leaving. So now our program at Dew--and I texted this 
to Chairman Gowdy earlier--people that go through that program, 
75 percent after 18 months are still employed. It teaches 
employability skills, how to write a resume, how to explain 
incarceration, Federal bonding, Federal tax credits.
    Also, we have the Second Chance program where everybody 
that leaves the Department of Corrections under DEW is signed 
up. They know where their services are, they know where their 
office is. They also have an opportunity where a couple of days 
a week there is someone who knows how to interact with someone 
who has been incarcerated, because sometimes they are 
intimidated by the government process helping them find a job.
    We do WorkKeys, apprenticeships, on-the-job training, the 
YOA program, and I will be quick on this one because I see I am 
out of time. Seventeen to 25-year-olds, 50 percent were coming 
back to prison, 50 percent. It was a failure, and they were 
coming back for a lot longer. Judge William Byars, who is a 
judge, family court judge, took over corrections, and Ginny 
Barr are doing great work with this.
    The recidivism rate right now, they are held to a standard, 
is 22 percent. They have a mentor. It is not someone who is 
there to take them to prison. That is what law enforcement is 
for. What they do is they are mentors and they try to hook them 
up with services, but they do have graduated responses.
    One quick story, and I will leave on this. We had one young 
man who kept on getting in trouble, kept on getting in trouble. 
One of the requirements for the YOA program is to have a job. 
So we took him down to fill out an application, and we thought 
he had a literacy problem, thought he could not read. Well, he 
could not read because he could not see the paper. So we took 
him to a free clinic, we got him glasses, and we will never see 
him again, and he kept on getting in trouble because he could 
not read.
    I am happy to answer any questions, and I want to thank 
Governor Haley and Governor McMaster for the support they have 
given us. Governor Haley visited three or four prisons while 
she was there and really worked on workforce development, and 
she knew that these folks were getting out and that they needed 
the services when they left.
    Thank you very much, Mr. Chairman and committee members.
    [Prepared statement of Mr. Stirling follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Director.
    Pastor Jahwar?

                    STATEMENT OF OMAR JAHWAR

    Pastor Jahwar. First let me say thank you to Chairman Gowdy 
and to these representatives we have on this great committee, 
and for allowing us to testify to give voice to the work that 
we do. I do want to say to start that my son, Omar Jahwar, II, 
is here, and one of our great workers, Urban Specialists, 
Edward Loredo. I am saying this to my son so when he brags on 
me that he can be accurate that I did acknowledge him when I 
was in Congress.
    Twenty years ago I stood before a similar committee that 
was headed by then Chairman Henry Hyde and John Connors about 
the effective ways in deterring a child from becoming involved 
in criminal activity, and what we said then is that it is 
necessary to pursue the core of the problem. There were a 
number of variables that we said were the root of youth crime. 
Back then it was economic disparity, cultural insensitivity, 
and the lack of moral identity.
    But concerning intervention and reformation, I warned 
against using a blanket solution that isolates each category of 
dysfunction. An effective solution to youth crime requires an 
holistic approach, one that treats the entire individual and, 
in turn, the larger family, and then the community. Today, we 
are attempting to cure the poisonous fruit that grew from that 
untreated root.
    Twenty years later, these high-risk youth have become ex-
offenders trying to raise families and re-integrate into a 
damaged society. The solution to their lack of production as 
citizens cannot be merely punitive, as we have been talking 
about, and I am so glad that you understand it. Again, it must 
be holistic. We must walk people getting out of prison through 
the process of redemption and lead them into productive 
citizenship.
    We attempt to train and we use what we call Urban 
Specialists to intentionally dive deep into the lives of these 
to transform the fundamental values that are guiding 
destructive behavior and degrading urban culture and greatly 
limiting their potential. We train and empower our 
organizations and businesses and individuals to collaboratively 
operate in the community, stimulating the economy and uplifting 
their personal spirits.
    Collectively, we can help each other economically, 
socially, and spiritually. In turn, we create change together 
to build a greater and stronger community. We use what we call 
a 3-I Model, and I will explain it if there are any questions 
about your model. And that model we use to empower 
organizations, businesses, politicians, and citizens so we can 
transform the urban culture. In Urban Specialists, we use this 
common approach to invade the culture, we are intrusive in our 
action, and build up strong community institutions.
    I am personally committed to advancing the cause of the 
voiceless who suffer silently in an attempt to become 
productive citizens of this great country. If there are ways 
that we can collectively ensure a better process and a better 
outcome, the Urban Specialists group is ready to serve.
    I want to say personally that I was the first gang 
specialist hired by the State of Texas. So for many years, I 
was working inside the prisons, and my job was to negotiate 
peace in prisons with men who were violent. And what I realized 
is that most of these men were not violent perpetually. They 
were violent as a response to what they felt was a violation, 
and my job was to create civility in their mind so that their 
behavior could follow where their heart was going. But 
unfortunately, many of these men, who I knew had transformed 
inside the prison, once they walked out, they had to go into a 
community that was not prepared for their transformation.
    So in order for them to be released from prison, they had 
to tell the guards that they had changed. But in order for them 
to go back to their neighborhoods, they had to tell the 
neighborhood citizens that they were the same. So it was a 
dichotomy of a lifestyle.
    So what we decided to do was go into those neighborhoods 
and say who is it that can lead these young people back to 
their civility, and normally it was those who you did not know. 
It was some people who were former OGs and former gang leaders 
and former prisoners and grandmothers and other teachers and 
pastors who were informal coalition to help transform urban 
culture.
    So what we want to do is provide as much pressure as we can 
and as much opportunity as we can so that those who really want 
to be citizens do not feel like they are perpetually left out 
because of a mistake or because of an environmental choice. 
Some people do what they do because they know no other choice, 
but we want to give them those choices through the efforts that 
we do.
    So, thank you for allowing us to be a part of the solution, 
and if we can offer any help, we are absolutely poised to do 
so. Thank you.
    [Prepared statement of Pastor Jahwar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Pastor.
    Mr. McGahan?

                STATEMENT OF WILLIAM C. MCGAHAN

    Mr. McGahan. Thank you, Chairman Gowdy and Ranking Member 
Connolly. My name is Bill McGahan, and I am the Founder and 
Chairman of a non-profit called ``Georgia Works!''. I am a 
graduate of the University of Virginia, and I am married to a 
woman for 26 years who is a graduate of Socastee High School, 
South Carolina.
    Georgia Works! helps formerly incarcerated and homeless men 
become productive citizens. Since our founding in 2013, we have 
helped 316 men get jobs, remain clean, and get an apartment, 
and virtually all have not returned to prison. We have an 
additional 170 men in the program today, and they are all 
working toward full-time employment. About 70 percent of our 
participants are felons.
    When a man comes into our program, our voluntary program, 
we ask him to do three things: to be clean of alcohol and 
drugs, and we test when they come in and throughout the 
program; not to take handouts from the government or anyone 
else; and to work.
    Over 6 to 12 months we work with each of our clients on 
their obstacles to employment: the lack of a driver's license, 
wage garnishments, criminal history, a lack of a high school 
diploma, past-due fines, the lack of a bank account, just to 
name a few.
    But more importantly, we work with each client on the 
underlying cause of their problems, which is typically an 
addiction or a psychological problem. Each person is assigned 
to a case manager who they meet with daily. We have in-house 
meetings on NA, GED classes, one-on-one counseling, anger 
management classes, healthcare, and financial planning courses, 
among others.
    The key thing that makes us different from other 
organizations is that we run a staffing business within Georgia 
Works! We contract directly with 30 to 40 businesses around 
Atlanta for their labor, and over 100 of our men every day go 
to work for these employers while they are living at our 
facility. The staffing business is a way for employers to try 
out our employee in a low-risk way.
    Now, most of the people in our program end up getting full-
time offers from the private employers that are customers of 
our staffing businesses. So, while a man is in our program, at 
Georgia Works!, he is learning how to be a valuable employee at 
a private business, he is eliminating the obstacles that might 
prevent him from being employed, and he is working on his 
addiction or other problem that is the root cause of his 
issues. He is also making money through his own work. It is not 
a handout. We have a mandatory savings program, so when they 
leave they usually have between $2000 to $3000, which is enough 
to put a security deposit down on an apartment.
    We are funded completely by private sources, including me. 
We take no government funding of any kind. I take no salary or 
any expenses, and our staffing business basically funds the 
cost of running the entire program.
    There are several things that I have learned since I 
founded Georgia Works! that I want to talk about specifically. 
First, there is no shortage of jobs. According to websites, 
today in Georgia there are about 30,000 full-time jobs 
available. And there is a labor crisis in some sectors, 
including construction, food and beverage, commercial truck 
driving, auto repair, et cetera. These sectors simply cannot 
find the labor to fill their needs.
    Secondly, the people in our program range from poorly 
educated to very smart. We have people who stopped school in 
the junior high, and we have other people in our program with 
PhD's. So, we do not need just low-skill jobs or high-tech 
jobs, but we need the whole menu of jobs that fit each person.
    Number three, individuals do not really need to be highly 
trained to get a job with pretty good career prospects. Most of 
the men leave our program and begin full-time work around $13 
to $15 without any training at all.
    Number four, the biggest problem--and this is what we work 
on the most--is bad habits, not a lack of intelligence or poor 
schooling. The scarce commodity is the individual, regardless 
of their past, who works hard, takes direction well, has good 
habits, and will stay on the job past the first few paychecks.
    Many formerly incarcerated returning citizens and former 
homeless people are terrific employees. We have had many 
employers tell us that past drug dealers are their most 
entrepreneurial and creative and personable employees, and they 
move up pretty quickly. So that is my commercial for people to 
hire people who are ex-offenders.
    Now, Georgia Tech did a study on our program and found that 
our program saved $6 to $11 for every dollar invested in our 
program, and we can get a person from walking in the door to 
self-sufficiency and a taxpayer for about $2,500, and it costs 
the State of Georgia about $20,000 to incarcerate him.
    Where state and Federal Government can help the most, at 
the specific level down at helping men, are in a couple of 
ways. The first is to stop taking driver's licenses away for 
anything other than poor driving. We still have a whole lot of 
states that take people's driver's licenses or suspend them for 
drug offenses, failure to pay child support, and for other 
reasons. It is really a prerequisite to get a job now to have a 
driver's license.
    Secondly, wage garnishments, particularly in the area of 
past-due child support, are really crippling poor men and ex-
offenders. A man with a low hourly wage simply cannot afford to 
support himself with significant wage garnishments.
    And then lastly, promote programs like ours that will help 
people ready for work, change their habits, and eliminate 
barriers.
    Now, on the state level I am working with the Georgia 
Justice Project, the Department of Community Supervision, the 
Georgia Department of Corrections and other organizations to 
come up with some specific policy recommendations, and it is my 
honor to be here today, and I thank you for focusing on this on 
the Federal level. Thank you.
    Chairman Gowdy. Yes, sir. Thank you.
    Your Honor?
    [Prepared statement of Mr. McGahan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
              STATEMENT OF ALEXANDER WILLIAMS, JR.

    Judge Williams. Chairman Gowdy and Congressman Connolly, as 
well as my friend, Congressman Cummings, I wish you the best as 
you recover from your illness.
    Let me preface my remarks by thanking everyone on this 
committee for allowing me this opportunity to present just a 
few comments. I served for 20 years on the Federal bench as a 
trial judge, and prior to that I was the twice-elected 
prosecutor for a fairly large jurisdiction in Maryland called 
Prince George's County. I now am a share of the Judge Alexander 
Williams, Jr. Center for Education, Justice and Ethics, and my 
passion, of course, is criminal justice.
    I have three simple points that I wish to focus on. One 
that I think will help reduce recidivism and also address 
criminal justice reform is the need to review and for a better 
use of discretion. This is an area that really has not been 
addressed that much. All of us who are lawyers know, and 
prosecutors in particular understand that discretion is the 
hallmark of criminal justice. Discretion is administered and 
exercised by police officers, judicial officers, prosecutors, 
even grand juries and petty jurors, medical examiners, 
correctional officials, probation and parole officers, and 
executives through granting pardons, clemency, and commuting 
sentences, just to name a few.
    Discretion commences and continues with decisions such as 
who to investigate, whether to arrest, what charges to file, 
who gets bond, who is to be released, whether a minor is to be 
charged as an adult, whether the family car should be forfeited 
for drugs found in a car driven by a minor, what plea 
bargaining is offered, and other decisions by judges and others 
exercising discretion.
    Justice often varies depending on the nature of discretion 
employed and exercised. For me, the issue comes down to whether 
or should we and how can we attain reasonable uniformity, 
consistency, fairness, and how we can curb or employ better 
standards for the exercise of discretion. Every point of the 
criminal justice system where discretion is used should be 
carefully reviewed, data collected, and policies implemented to 
make sure there is consistency and that a meaningful effort is 
being made to address racial profiling, selective enforcement, 
and the disproportionate impact of the criminal justice system 
on minorities. We hope that the Justice Department and Congress 
can take the lead in this area to establish a model for the 
states to follow.
    The second point is the need to review mandatory minimum 
penalties. I know there has been a lot said there. The debate 
surrounding mandatory minimum sentences remains. While there 
are plausible arguments that repeated drug traffickers and 
those running criminal organizations and enterprises, and 
certainly some violent offenders and white collar and identity 
fraud crimes, certainly they warrant stiff and substantial 
sentences in order to deter, protect the community, and limit 
recidivism. However, studies have revealed the Comprehensive 
Crime Control Act, the Career Offender Statutes and enhancement 
penalty statutes unfortunately too often single out low-level 
drug offenders and disproportionately affect racial minorities.
    The final issue that needs to be addressed, in my view, is 
to review and address the collateral consequences and 
discriminatory practices and barriers imposed upon returning 
citizens and those with records. The bottom line for me is, 
again, we need to cut back on recidivism; that is, to make sure 
that persons with records and those returning have a successful 
reentry and are not reincarcerated. Clearly, there are 
circumstances where collateral consequences are appropriate. 
For example, it cannot be reasonably disputed that those 
convicted of child abuse or elderly offenses must be carefully 
screened and limited. Moreover, financial institutions must be 
alerted of potential employees having convictions of 
embezzlement. But I do believe that there are a number of 
situations where collateral consequences can be eased.
    My general view is that reducing recidivism can be best 
achieved by removing some of the discriminatory and 
unreasonable practices which prevent or limit access to health 
care, housing, education, and employment. Of course, there are 
a number of questions that can be raised, and some of those 
questions would be this: Do those returning to the community 
require more extensive or shorter periods of supervised 
release, or is it necessary in every instance for a convicted 
person who is applying for some type of vocational license, to 
get a Pell Grant, or for admission to an institution of higher 
learning, or must they be required to disclose a 20-year-old 
conviction that has very little relevance and relationship to 
the specific request?
    So those are my three points, Mr. Chairman. Thank you.
    [Prepared statement of Mr. Williams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Your Honor.
    I will now recognize the gentleman from Georgia for his 
questioning, Mr. Hice.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Let me just also take the opportunity--I think it is 
appropriate to say congratulations on your role in leading this 
committee. We sincerely look forward to working with you as 
this committee moves forward.
    And to each of our witnesses, let me say thank you, and 
also to the previous panel as well, for the work that each of 
you are doing. We are very much appreciative.
    Mr. Stirling, you mentioned briefly in your testimony some 
of the things that South Carolina is doing and the diversion 
options for less serious drug offenses, and I am very proud in 
Georgia, Mr. McGahan, what is happening there with the 
accountability courts where really, instead of going to jail, 
people have the opportunity to prevent even starting the cycle 
of recidivism as they get involved in a two-year-long, court-
supervised program that is evidence-based, a treatment program, 
involved in community service. They get jobs, all these types 
of things.
    Mr. Chairman, I do not know if any of my colleagues have 
had the opportunity to be a part of one of the graduation 
ceremonies of these courts, the accountability courts, but I 
have gone and, I will tell you, it took everything I had just 
to fight back the tears watching how these individuals had, 
over the previous two years, experienced life change as they 
saw, many of them for the very first time, community support 
where they themselves had their dignity raised as they got jobs 
and they broke the cycle of what many of their families had 
perhaps for generations.
    So, Mr. Stirling, I want to come back to you and, if we 
can, go fairly briefly. Do you have any idea how many people 
who are currently, percentage-wise, how many prisoners will be 
released at some point?
    Mr. Stirling. Well, most of them will be released. I know 
in under five years or roughly five years, it is 85 percent, 
and then it kind of goes down from there. But over 30 years, it 
is .27 percent. Five to 10 years is about 10 percent. Five and 
under, it is 85 percent.
    Mr. Hice. So say 10 years, probably 90 percent are going to 
be out. Is that fair to say estimate-wise?
    Mr. Stirling. Ninety-five percent.
    Mr. Hice. Okay, 95 percent. All right. So, here is the 
issue we are dealing with: these folks are going to be out.
    Mr. Stirling. Yes, sir.
    Mr. Hice. So the question then becomes what happens with 
them when they are out? And from what I have been able to find, 
well over 60 percent of prisoners who are released are re-
arrested within two years. In states where there are the 
accountability courts, that number drops from 60 percent down 
to 25 percent. I know in Georgia we are well below even that 
rate for those that are a part of the accountability courts.
    So, Mr. Stirling, can you just briefly discuss some of the 
diversion options that are taking place in South Carolina?
    Mr. Stirling. Sure. We have drug courts, which are amazing 
to watch. We have veterans courts. We have--Judge McCullough in 
Richmond County has started mental health courts. As I said 17 
percent of those incarcerated in South Carolina are diagnosed 
with a mental health issue, and sometimes for these folks 
getting treatment, getting hooked up with the proper medication 
and medical professionals really can change their lives and we 
will never see them again. Incarcerating someone costs around 
$20,000 a year in South Carolina, which is one of the lowest in 
the nation, and by getting these treatments and having them 
become taxpaying citizens, we will never see them again.
    Mr. Hice. That is amazing.
    Mr. McGahan, what you all are doing with finding jobs and 
so forth, has it been difficult to find companies that will 
take these individuals?
    Mr. McGahan. Well, there are obstacles, certainly. Some are 
just not good fits, but then there are others who have a crisis 
and just need work. As you know, in Georgia there are a lot of 
distribution centers, and our men go work there, property 
management companies. We have people who work in recycling, 
nighttime work. So because there is such a big need now for 
labor, not to mention the construction, the food and beverage, 
the hospitality industries, we are able to use salesmen to help 
them overcome their objections, their initial objections, to 
get opportunities for our guys.
    Mr. Hice. Well, I just again want to say thank you for all. 
I wish we had time just to hit on a lot of questions. I am sure 
many more will come. But, Mr. Chairman, I appreciate this 
hearing, and I yield back.
    Chairman Gowdy. The gentleman yields back.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Connolly.
    Mr. Connolly. I thank the Chair.
    Last month Senator Rand Paul wrote an op-ed entitled, 
``Sessions' Sentencing Plan Would Ruin Lives'' in response to 
the Attorney General's instruction directing prosecutors to 
pursue ``the most substantial guideline sentencing, including 
mandatory minimum sentences, for non-violent drug crimes.''
    Pastor Jahwar, does that policy make sense from your 
experience, to go back to what had characterized sentencing 
prior to the 2013, 2012 period?
    Pastor Jahwar. Mr. Connolly, no. I think that is a bad 
policy, personally, because I have seen so many young people 
who I know who were victims of their own environment, and then 
they did some victimization. But to go back would say to us 
that rehabilitation is not possible, that this is a warehousing 
institution. As Mr. Stirling said, what do you want? Would you 
rather have young people, older people, whomever, to come out 
of a prison somewhat rehabilitated, or would you rather have 
them just locked down until they have done enough time where it 
becomes punitive?
    Mr. Connolly. Mr. Stirling, listening to your testimony on 
the data, which was pretty impressive what you are describing 
in terms of the recidivism rate going down in South Carolina, I 
do not want to put words in your mouth, but I assume from your 
testimony that you would kind of agree with Pastor Jahwar and 
what he just said.
    Mr. Stirling. I do think we are seeing success in the 
programs with, as I said, some of the things that we have done 
on the state level, which may or may not translate to the 
Federal level. We have seen success in the diversion programs, 
but we have also seen a lot of success in the other programs 
that we have at the Department of Corrections.
    One of the things I did not mention is the Youthful 
Offender Program, where they are assigned a mentor. The numbers 
are one mentor, one social worker or youthful offender officer 
to about 25 people, and they are testing them for drugs, they 
are making sure they are working, they are making sure they are 
getting their education, and they are holding them accountable. 
We have had people that said I do not want to do that, I would 
rather just go to prison, and they do go to prison, but we do 
use graduated responses. That program, at 50 percent to 22 
percent, is amazingly successful and is saving a lot of tax 
dollars.
    Mr. Connolly. You know, I remember doing a tour of our 
county jail in my county when I was chairman of the county, and 
I asked our sheriff, you know, how many people here are just 
sort of hard-core, no hope, versus something bad happened to 
them or they made a bad judgment or they hung around with the 
wrong crowd? And he said overwhelmingly the latter. There's the 
hard core, but most people can be rehabilitated with the right 
measures.
    And the other irony, I think, is jails often serve as a 
massive substitute for mental health treatment and substance 
abuse treatment because we do not have the services in the 
community, and it puts a huge burden on people like yourself 
and your colleagues to provide services that one wishes were 
provided through a different kind of safety net.
    Judge Williams, from 2013 to 2016, the number of Federal 
prisoners dropped by more than 10 percent, and mandatory 
minimum sentences were used at the Federal level 30 percent 
less than they had heretofore. What is your view about 
mandatory minimum sentences in terms of the discretion given to 
people like yourself and your former colleagues on the bench?
    Judge Williams. Certainly, and I think I speak for a 
significant number of Federal judges who did not like the idea 
of having been stripped of their authority to consider a number 
of factors when sentencing people. What mandatory minimum 
sentences have done effectively--and, of course, I am a former 
prosecutor, so I certainly enjoyed that power, but the 
authority and the power really vests in prosecutors under 
mandatory minimum sentences, and they have the right to charge 
within the mandatory statute or not charge if someone would 
cooperate or give substantial assistance or what have you.
    So I was very happy when some cases and also the sentencing 
commission began to restore some of the discretion that Federal 
judges had for certain types of offenses, and I think that 
resulted in less sentences being imposed on a number of 
defendants.
    Mr. Connolly. One can understand why mandatory minimum 
sentences came up, but is it not true that the problem is it 
is, on its face, discriminatory? That is how it works, the 
results are discriminatory even if the intent is not.
    Judge Williams. Well, certainly the impact does have a 
disparate impact on minorities, but also mandatory minimum 
sentences have an unreasonable result sometimes. You may have 
seen an article that appeared in the Washington Post a couple 
of weeks ago involving myself and an inmate who I had given 
life in prison. I had to do it because of his young brushes 
with the law years ago. I looked at all of the cases. There 
were eight or nine defendants. This guy had less involvement. I 
did not want to give him the maximum sentence, but I had to 
because, again, his record made him a career offender.
    So sometimes you have just an unreasonable result that 
takes place when you have these things. Fortunately in his 
case, President Obama did commute his sentence, and after 
serving 12 or 13 years, he is now out.
    Mr. Connolly. Yes, although that is sort of a last resort. 
We wish the law could be more flexible.
    My time is up, although, Mr. Chairman, I do not want to 
deny Mr. McGahan an opportunity to comment if he was getting 
ready to comment.
    Mr. McGahan. I deal with people coming out of prison who 
want to get their lives back, who want to work, and many have 
been involved in drug crimes, non-violent crimes, or in some 
other non-violent felony, and they are terrific people, almost 
without exception, or they would not walk through our door. 
These are people who made mistakes, were caught up with the 
wrong crowd.
    It is too expensive for us to put these people in a prison 
when there are other, better alternatives to handle these 
folks.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Arizona, Dr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    As you talk about recidivism and issues facing the criminal 
justice system, I wanted to take a few moments today to discuss 
the impact of programs like the veteran treatment courts on 
recidivism rates. Veteran treatment courts promote sobriety and 
recovery through coordinated local partnerships among community 
correction agencies, drug treatment providers, the judiciary, 
and other important community support groups. Veteran treatment 
courts have been extremely successful in my district.
    The veteran treatment court in Lake Havasu City and 
Kingman, Arizona have strong records of effective service to 
the veterans they serve. In Mojave County these programs have 
been leaders in best practices, innovative approaches to 
engaging stakeholders, building support coalitions, and 
expanding access to effective treatments. Our veterans need 
focused treatment and a helping hand, and these courts provide 
such an avenue.
    The alternative is often jail, and I am very proud that one 
of my own staff has been instrumental in Arizona, Sean Johnson, 
for getting these up and running.
    So, Mr. Stirling, I have a question for you. Does South 
Carolina implement any type of veteran treatment courts?
    Mr. Stirling. We do. We have veteran treatment courts. Ten 
percent of our inmates, our prisoners, are self-identified as 
veterans. One of the things we have done recently is down by 
Charleston and McDougall Correction, we have a veterans dorm, 
where I figure they have given a lot for this country and maybe 
because of their service or something that happened or 
something they saw they ended up being incarcerated.
    So we have designed a program, a wrap-around program that 
just started I think back in January where the dorm is run by 
veterans and we have veteran volunteers, and we try to get 
these people--it is a pre-release dorm--to services and 
connected with other veterans when they leave so they will not 
come back.
    Mr. Gosar. So it is still pretty early in that program.
    Mr. Stirling. It is. Yes, sir.
    Mr. Gosar. Well, I have to tell you, the application that 
we have seen in Arizona is incredible. You see a broken person 
start that process, and you see their eyes light up, getting 
back to peers that they want to respect and be respected for.
    Mr. McGahan, your program helps getting homeless and 
incarcerated men back on their feet. What percentage would you 
say are veterans?
    Mr. McGahan. About 10 percent, sir.
    Mr. Gosar. Do you find that they have more specific needs 
than others in your program?
    Mr. McGahan. They do. They have unique challenges and 
sometimes require more mental health and counseling than other 
people in our program.
    Mr. Gosar. So one of the things we found in Arizona is that 
a comprehensive approach is needed to getting veterans back on 
their feet. They need access to housing, access to jobs, and 
the ability to stay away from those bad habits. Do you see 
similar issues that those who work with you in your program?
    Mr. McGahan. We do, and it does take a holistic, 
comprehensive approach. Many veterans have been through some 
very difficult situations, and they have not addressed them 
adequately, and that is what leads them to our program.
    Mr. Gosar. It seems like these treatment courts really work 
because of working with your peers. They identify and respond 
so much differently than you see anybody else. It is like they 
are letting their buddy down from the military, and there is 
something there. Can you explain a little bit more, too?
    Mr. McGahan. I completely agree. I think putting veterans 
with other veterans helps them. So if you have one in need and 
we have two or three that are more senior and who have been in 
the military, to help a person talk about their problems, to 
address them. One of the things that I have found is that many 
men are programmed to not talk about their feelings or the 
things that they have been experiencing, and to get them over 
that hurdle. And then once they do that and articulate their 
problems, then things tend to get better from there.
    Mr. Gosar. In your opinion, what is the primary factor that 
keeps individuals from going back to criminal activity?
    Mr. McGahan. I think bad habits, and that includes drug 
habits and work habits. So if we can address--if there is an 
underlying psychological issue that we have just been speaking 
about, and then we have a drug addiction on top of that, we 
have to address both those issues. And then if we address those 
issues and we then get them in a job and get them working, they 
tend not to go back to their old ways.
    Mr. Gosar. And I think that is the benefit of these 
treatment courts. They give that positive influence and support 
on a timely basis, repetitively, in the military fashion.
    Thank you very much for all that you do. We certainly 
appreciate it. It is a great hearing. Thank you.
    Chairman Gowdy. Dr. Gosar yields back.
    The gentle lady from the District of Columbia is 
recognized.
    Ms. Norton. Thank you, Mr. Chairman. I want to thank all of 
the witnesses. I have learned from them all.
    I also want to offer my congratulations to Chairman Gowdy, 
and I want to thank him for his first hearing which focuses on 
an issue where there have been earnest efforts on both sides. I 
think, Mr. Chairman, beginning with criminal justice reform in 
a hearing indicates the tone you are setting for this 
committee, recognizing that, as Mr. Connolly's remarks 
indicate, there will be circumstances where we must disagree, 
but it seems to me that this was an important precedent about 
how to start a new chairmanship on a committee such as this, 
and I thank you.
    Mr. Chairman, I would also ask that a letter written by the 
ranking member, Mr. Cummings, and Mr. Issa requesting that you 
place H.R. 1905, the Fair Chance Act, on the agenda for the 
committee's next markup. That, of course, is the bill that says 
that only at an appropriate point in the hiring process may an 
applicant be asked about his criminal history record.
    Perhaps the most important issue for someone coming out of 
prison is the challenges he faced in finding employment, and 
the discouragement he faces in that regard. Of course, he will 
find many barriers. Some of those are to be expected. But I was 
interested to note that 18 states and more than 150 cities, 
including my own, have adopted the so-called Ban the Box idea I 
just spoke of a minute ago so that employers can consider the 
record of any applicant, but it simply delays asking about that 
record.
    Many of us have heard really poignant stories about someone 
who has been out of jail for 10 or 20 or even more years but 
must put, if he is truthful, that he has once been 
incarcerated. Ten, 20, 30 years of exemplary behavior may not 
matter if the first thing the employer reads is of a record.
    Now, I recognize that some of you are from states that have 
not adopted Ban the Box, but I am very impressed at the number 
of so-called Red States that have. I asked my staff to find 
them for me. Kentucky, Louisiana, Missouri, Oklahoma, 
Tennessee. Now, of course, Judge Williams has adopted Ban the 
Box.
    I am not asking the others of you to take a position on 
what your state should do, but I am asking you whether or not 
you think Ban the Box legislation has been useful, or otherwise 
to explain to me why apparently, regardless of where the state 
has stood on other matters, it seems to be in line with other 
states that are far more liberal than it is on Ban the Box. I 
would be very interested in Mr. Stirling, Pastor Jahwar, and 
Mr. McGahan on that question. Would it be useful to consider 
Ban the Box in your state?
    Mr. Stirling. Governor Haley and Cheryl Stanton actually 
had a summit with a bunch of businesses, and we asked them to 
look at and hire people who were incarcerated. I do understand 
why some companies--and it is a frustration of mine when I go 
to companies and say will you hire these folks, and they say we 
do not, and I say just give them a chance because they are 
going to work hard. But I do understand why some companies 
cannot, for various reasons, if they work with financial 
services.
    So a blanket policy of banning the box, I think you would 
get people down a path and then they would find out that there 
was a record or there was a reason not to hire that person. So 
I think this is something that we encourage in South Carolina 
companies, just to look at hiring second-chance employees, and 
that is my role as a Department of Corrections director, to go 
out and find those. Those ladies sitting behind me, that is 
their role and their staff's role, to find that.
    Ms. Norton. I am glad you mentioned that there are some 
instances where you would not want to have such a person hired. 
But after you find out, Mr. Stirling, about the record, you can 
still refuse to hire. So there is no such thing as once you 
find it out and you do not hire, even though it has been 30 or 
40 years ago I am still requiring you to hire, and the notion 
that you raise is very important about what your conviction was 
in.
    Mr. Chairman, if I may just hear the answers of the other 
two gentlemen, because I recognize I am over time.
    Pastor Jahwar?
    Pastor Jahwar. Yes. In Texas, we have been dealing with 
that, and what we have found is that that legislation would 
help us even if we had to modify it somewhat, because I do 
recognize what Mr. Stirling was saying. But what we see more 
than that is that there are not enough tools to protect those 
who have reformed, that there is a reformation process, but the 
punitive process goes beyond them reforming.
    So a friend of mine would say that a full heart needs a 
full stomach and busy hands or they will return to the other 
behavior. So what I have always pushed from my local and state 
government is to figure out ways to eliminate the barriers, and 
that would be another tool. As many tools as we can have in our 
toolbox for me is important because that is where we are. We 
are at a state of emergency where those who are truly trying to 
do right are prevented by things that they have done in the 
past.
    Ms. Norton. Mr. McGahan?
    Mr. McGahan. In Georgia, Georgia has banned the box for 
state jobs, which is an executive order, and for occupational 
licenses. But Georgia Works! is based upon banning the entire 
application. We say to employers just let us show up with five 
or six guys, regardless of their past, see if you like them, 
let them get to work there, and they inevitably like them after 
a few months.
    So we put all the paperwork aside, say try out our men, and 
this is a pitch for our employment agency, you will like our 
guys, and then these guys will get hired full-time jobs, and 
then the application comes after they have started working 
there on a temporary basis.
    So I am for banning the box, I am for banning the 
application and eliminating the barriers to employment.
    Ms. Norton. That sounds very innovative.
    Thank you, Mr. Chairman.
    Chairman Gowdy. The gentle lady yields back.
    The gentleman from Kentucky, Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    I am not an attorney or a lawyer or a judge, but I was in 
county government. It was county judge executive, sort of the 
county executive. My impressions of criminal justice reform 
were informed by my experience there as county executive where 
the jail was the biggest expense in the county and it does not 
create any revenue, and you see situations there that just do 
not make any sense, like a Gulf War veteran who is serving one 
year. We house state inmates as well in the county, in jail. 
The state pays to keep them there.
    A Gulf War veteran, decorated, serving a year for non-child 
support. Now, that is despicable, not to support your children, 
right? But how does that improve the situation? Now this man is 
a felon with a one-year sentence, virtually unemployable.
    Mr. McGahan, can you speak to that?
    Mr. McGahan. Well, that is crazy, right? I mean, we have a 
guy who has not paid his child support, so he is put in jail, 
which he then further cannot pay his child support, which goes 
back to one of the points I wanted to make, which is, first of 
all, a Gulf War veteran has been through a lot, probably has an 
underlying issue which needs dealing with, probably has a 
substance abuse issue as he tries to self-medicate on top of 
that. So we need to get to the core problem to help that person 
so he can then get employment and then pay his past-due child 
support. So, that is the first point.
    The second one is past-due child support is onerous on low-
earning humans, people, returning citizens. It is preventing 
them from getting payroll jobs. It is incenting them to do 
under-the-table work. It is incenting them to do criminal 
activity, because for a small portion of folks, they just 
cannot afford to pay for themselves because of these issues, 
these wage garnishments.
    Of course, we want people to pay--absent fathers, we want 
them to pay for their children, there is no question about it. 
But there is a portion which get behind, and then it becomes 
too big of a mountain for them to climb on their own, and we 
just have to--and we are incenting behavior that we do not 
want. The general problem is we have all these employers who 
have open jobs, and we have all these people who want to work 
at them, and we have these barriers in-between. We have to 
knock those barriers down.
    Mr. Massie. Ms. Norton sort of covered this, but what role 
does expungement play?
    Mr. McGahan. Well, we have had some success with some folks 
to go back and get past-due child support eliminated, and we 
have thought a lot about this. For people who have younger 
children, we have had some success in getting it reduced, or 
the payments reduced, not the total amounts reduced, because we 
want those fathers to pay. But for some people who are 60 and 
their kids are long gone, they are grandparents, we are talking 
about mountains of past-due child support ----
    Mr. Massie. Well, let me just be clear, and I want to move 
on to another topic. I am not advocating non-support here. I am 
just saying sometimes we do things that compound the problem 
and cause the children never to receive any support if we cause 
the father to be unemployable.
    I want to move on very quickly. I am the lead Republican 
sponsor on a bill with Congressman Bobby Scott called the 
Justice Safety Valve Act, which would give judges more 
discretion in applying the sentencing. In other words, 
discretion to override the mandatory minimums across the board.
    It occurs to me listening to you, Judge Williams, that 
there is already sort of a safety valve in there that my 
colleagues here do not understand. It seems like every two or 
three months we pass another bill with a mandatory minimum in 
it, but they do not understand that the prosecutor has 
discretion as well and may choose not to prosecute that 
particular crime because that mandatory minimum is in there.
    So by putting a mandatory minimum in there, is it possible 
that sometimes we cause certain crimes not to get prosecuted? 
They might choose another one if they did not think the 
mandatory minimum was appropriate. Can you speak to that, Judge 
Williams?
    Judge Williams. Yes. That is why I mentioned that all 
points of the system where discretion is utilized, these should 
be reviewed. Certainly, the safety valve is one mechanism to 
undercut some of the harshness associated with mandatory 
minimum sentences. But in addition to that, I would just like 
to see an equalization of the discretion and the authority, 
both for prosecutors as well as for judges.
    You are right, Congressman, prosecutors have a way to get 
around even the safety valve by charging or making some other 
decisions on prosecution that, again, would lessen that impact. 
So I would just like to see, again, a review of all of that 
legislation, all of those policies, so there can be more of an 
equal distribution so that judges can take into consideration a 
few more factors to make sure that the appropriate sentences 
are handed down.
    Mr. Massie. Just in closing here, I just want to say one 
other crazy thing I saw at the county jail, state jail level. 
It is public perception. They feel good when they see inmates 
picking up trash on the side of the road. What they do not 
realize is they are not learning a vocation that is going to be 
transferrable back into society. So even though that may score 
points with the public officials to have the inmates out there 
picking up trash, we might be doing society a better favor to 
teach them or to have them do tasks where there are employable 
skills that are being picked up.
    Pastor, did you want to say something to that?
    Pastor Jahwar. Yes, sir. I think you are hitting on a vital 
point, that the skill set that a person needs is not just what 
they can do with busy work but what they can do to further 
their societal advantage. What I tell some of these young men 
is that your characteristic has a marked advantage in the 
neighborhood that you are living in, but we need to help you 
transform your character. But they have skill sets that are 
beyond being at the bottom rung.
    One of the things I say to investors is do not ask these 
young men and young ladies how to be workers. Ask them do they 
want to grow up to be an employer, what is the best way not to 
have the minimum qualification, because they do not have a lack 
of understanding, a lack of brilliance. A lot of times it is 
the lack of environmental support to get them where they are 
going. So, I totally agree with you.
    Mr. Massie. Thank you. I see my time has expired.
    Chairman Gowdy. The gentleman from Kentucky yields back.
    The gentleman from Missouri, Mr. Clay, is recognized.
    Mr. Clay. Thank you, Mr. Chairman. Before I get into the 
questioning, let me compliment you for holding this hearing, 
for inviting this great witness panel, as well as the two 
previous witnesses. All of them have given voice to the 
circumstances, and they have also stressed access to 
opportunity. So I appreciate this hearing, and also to the 
ranking member.
    According to the Substance Abuse and Mental Health Services 
Administration, more than half of all state prison inmates are 
reincarcerated within three years of release. About two-thirds 
of the estimated 600,000 new incarcerations annually are people 
who have failed on probation or parole. A 2012 report from the 
Council of State Governments Justice Center also found 53 
percent of state prisoners and 46 percent of Federal prisoners 
in the year prior to their arrest met the DSM-IV criteria for 
substance dependence or abuse.
    Judge Williams, in your experience, can untreated substance 
abuse disorders contribute to individuals failing to meet the 
requirements of their probation or parole?
    Judge Williams. Yes. In the Federal system we call it 
supervised release. But let me say this, Congressman. I 
absolutely agree with you, the failure to provide adequate 
mental treatment and counseling while incarcerated, and even 
when they are released, contributes in a mighty way to 
recidivism.
    I headed the task force in Maryland studying that issue, 
and there was a lot of testimony from stakeholders and people 
who had been out saying that there is a lot of stress and 
buildup of mental anxiety associated with people incarcerated, 
and they did not think that enough was being done in the prison 
to address that issue so that they could handle their release 
once they came out. So I agree with you.
    Mr. Clay. Thank you. And let me ask Mr. Stirling, do 
prisons and jails face challenges in effectively treating 
inmates suffering from substance abuse disorders?
    Mr. Stirling. Yes, sir. When I took over, I took over on 
October 1st, 2013, in January of that year Circuit Court Judge 
Baxley in South Carolina issued a 46-page order of how the 
mentally ill were being treated at the Department of 
Corrections. It was a decade-old lawsuit by P&A, and one of the 
first things I did was I wrote a letter to P&A and I said 
please sit down with me as a practicing attorney. I knew the 
benefit of mediation. So we sat down. We had a retired judge 
mediate it, and we settled that matter in January.
    But treating folks with mental health issues while 
incarcerated is extremely difficult. It is extremely difficult 
to find a vacancy rate for mental health professionals. We have 
one psychiatrist, and when St. Peter meets her, she is going 
straight into heaven because she has been on call for almost a 
decade.
    We are doing what we can with what we have, but hiring 
people--South Carolina does not have a lot of mental health 
professionals, and on another committee we are working on that. 
But treating people that are incarcerated with mental health 
issues and getting the proper staffing is very difficult. On 
top of that, a lot of corrections facilities across the 
country, mainly in the southeastern states, have high rates of 
vacancies for their officers. So if you have officer vacancy 
rates, you have lockdowns, which exacerbates the problem. They 
cannot get treatment, they cannot get into group. We are in the 
early stages of trying to fix that, but it makes it very, very 
difficult to treat these folks.
    One last thing, and I know your time is quick. One thing we 
are doing is we partner with our drug agency. A lot of people 
who are addicted to opioids are starting to come into our 
prisons. So we are starting a program in August where we are 
going to give them a pill, and then we are going to give them 
shots on the way out that will be an opioid blocker, and we are 
doing this with about 10, and we are going to follow them for a 
time to see how they do. If it is successful, we will expand 
that program.
    Mr. Clay. So the opioid epidemic is affecting recidivism 
rates.
    Mr. Stirling. Well, it is so new to South Carolina. I would 
say drug addiction does affect, but opioids are starting to 
come into the state. It is not as much as some other states, 
but we are starting to see it, and I am trying to get ahead of 
it. It is not like some of the other states, like West Virginia 
and like that.
    Mr. Clay. Mr. McGahan, are you seeing this?
    Mr. McGahan. Not in inner-city Atlanta, no. We are still 
dealing with alcohol, marijuana, and crack.
    Mr. Clay. I see.
    Mr. Chairman, my time is up. I yield back.
    Chairman Gowdy. The gentleman from Missouri yields back.
    The gentleman from North Carolina, Mr. Walker, is 
recognized.
    Mr. Walker. Thank you, Mr. Chairman. I appreciate being 
here on your very first day as chairman. I appreciate also your 
work in partnering with us and Senator Tim Scott and working 
with chancellors throughout the historically black colleges and 
universities, and even talking about some of these issues with 
those wonderful people.
    Let me first commend Pastor Jahwar for honoring your son. 
As a former pastor and pastor's son, I respect that. I am sure 
it is reciprocal in many cases, or at least eventually got 
there if you are like most pastor's kids. But I do appreciate 
that. I appreciate your calling. I appreciate what you are 
trying to do here. I think it is incredibly important.
    There is a lot of talk in this area these days, and I have 
often thought how much of that actually comes or is able to 
formulate into some kind of substance where we are seeing 
results. We are always talking about awareness, and it is good 
in some ways, but how do we translate that to the action steps? 
I have often thought that in many cases this has to start with 
relationships, and I am not talking about pandering stuff or 
knowing the talking points. I am talking about getting involved 
in these communities and showing up, sitting in the back row 
sometimes even when you are not the featured speaker, to be 
able to engage.
    We have done some work over the years in the inner cities 
in places like Cleveland and New York and Baltimore, and I will 
never forget, certainly not anytime soon, the gentleman we were 
working with and his family there in Cleveland when we said 
what is it that we can bring, and he said if you will bring 
hope, he said bring hope.
    And I see many times that we have lost the hope, and these 
young men and women, sometimes they have never seen hope 
before. And I wonder, with all the great policies and programs, 
we cannot just force a template in different communities and 
societies without adding hope in the relationship component to 
that. And I challenge myself, and I am grateful for the 
different people that are here today because I heard a little 
bit of that element in all of that.
    My question today for you, Pastor, and maybe some others, 
is when it comes to education, how crucial of a role does 
education play in this process when it comes to the reentry 
component?
    Pastor Jahwar. Well, thank you. I believe that education's 
role is important in this sense. I believe it goes back to what 
you said initially. It is relational education. It is not just 
what they learn, it is what they retain, and they retain it 
from mentors and coaches.
    I had a man who had 1,000 years. He had a 1,000-year 
sentence for a crime he did not commit, Harold Hill. He got 
released. He said to me, he said, man, the strong rule the 
weak, but the wise rule them all. He was a very thin man, and 
he said when I came into prison I had to figure out what it is 
I could learn, not who it is I could intimidate. And when he 
came out of prison, his whole platform was how do I become 
educated enough to show these other young men that they do not 
have to do what I did, they do not have to go through what I 
went through.
    So I believe education in its purest form, a high school 
diploma, is absolutely necessary. But there is a relevant 
education that comes through relationship that teaches one and 
reaches one, and as a pastor I have said it is a discipleship. 
It is how do you disciple that person through an environment 
that is known to destroy you.
    Mr. Walker. Yes. It has to be a genuine investment instead 
of just something out of a book, in my opinion here.
    I may have the other guys weigh in, but I want to get to 
something else, something that is not in the notes that I want 
to talk about just for a second.
    We are always talking about educating these men and women 
who are reentering society. What I do not hear talked about 
sometimes is educating those who are working with these 
individuals, and let me give you an example.
    Recently I had a pastors breakfast there in North Carolina, 
representing 50 or 60 pastors there, and I just boldly asked 
them, I said how many times in the last six months have you 
used the terminology ``second chance'' or just criminal justice 
in general? I had two raise their hands.
    So when we talk about education, it is important that we 
find that skill set to reenter society, but how important is it 
for those who are community and society leaders when we are 
talking about these policies when it comes to the education of 
those providing it?
    I want to start with Mr. McGahan, and also the pastor can 
weigh back in as well.
    Mr. McGahan. Sir, I think it is very important. I think 
just having this hearing is incredible because it makes people 
realize, first of all, that we have a big problem of many 
people that are coming, reentering society from prison; and 
secondly that we should welcome those folks with open arms back 
to our communities once they have paid their price. People make 
mistakes and they can change and they can move on from there, 
and I think that is an important thing for all of us to talk 
about.
    Pastor Jahwar. And you made a statement about those who 
serve. The most profound thing that I found is those who are 
serving normally are the most tired, the most frustrated and 
agitated with the population, and it is normally because they 
are behind the curve. So they are learning, and their learning 
is from bad experience. So, absolutely, we need to do as much 
training, opening people's minds up to a different way because 
there is one idea, and if that one idea is not producing--
normally we would just double down on that idea regardless of 
whether it is producing results or not.
    Mr. Walker. Thank you, Pastor.
    Mr. Chairman, I yield back.
    Chairman Gowdy. The gentleman from North Carolina yields 
back.
    I will tell my colleagues they are expecting votes around 4 
o'clock. So if we assiduously adhere to the 5 minutes, we maybe 
can get everybody in before we go vote.
    With that, my friend from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman, and your 
congratulations to you on your new appointment. It will be good 
to be working with you.
    I do have a matter of some interest on just procedural 
aspects of the work of this committee before I ask our 
panelists some questions. It has been a matter of longstanding 
constitutional precedent that Congress, and specifically this 
committee, is empowered to investigate matters within its 
jurisdiction to see that the laws are faithfully executed, and 
I think it is beyond argument that foreign interference with a 
democratic election is an appropriate, if not compelling, area 
of inquiry for this committee.
    Also, given the history of congressional inquiry, from the 
struggle for civil rights to the Vietnam War and to the Nixon 
impeachment, the current refusal of this committee to take up 
the reports of our intelligence agencies, including the NSA, 
CIA, and FBI, who all report with high confidence that our 
elections were hacked, I think our refusal to investigate is 
not only disappointing but perhaps shameful.
    I, however, remain hopeful that with your leadership, Mr. 
Chairman, and with Ranking Member Cummings' leadership as well, 
that we can look back and at some point take up this issue of 
foreign interference with democratic elections within this 
committee. If there is any issue out there that is beyond 
Democrat, beyond Republican, beyond Independent, it is whether 
or not we enjoy full integrity in our electoral process here in 
the United States. I think that is important to all Americans, 
and I hope at some point we can do it in a non-political way. 
Forget about the last election. Mr. Trump won. But we are going 
to have another election, and we want to make sure that we are 
able to protect the integrity and the results of that upcoming 
election. Democrats, Republicans, Independents, we all have an 
intense interest in the legitimacy of that outcome.
    Turning now to our panelists, Mr. Chairman, I want to thank 
you for your wisdom in selecting this group. They have been 
absolutely fantastic today. I have had a chance to meet with a 
lot of my prison officials. And, Mr. Stirling, my warm regards 
to your family in my district.
    In my district and across the State of Massachusetts, I 
would say on average 80 to 90 percent of my inmates are dually 
addicted, so alcohol and drug addiction, and that is high. I 
realize that is high. I know what the national numbers are, but 
it is high.
    We are struggling. We are struggling in Massachusetts with 
how to deal with OxyContin and all these opioids. I hear some 
great things in Georgia and in South Carolina. I am just 
wondering--so, suboxone, buprenorphine, vivitrol--what are you 
using to try to help your folks so that when they come out, 
they at least have--and this is a big thing, not ``at least''--
they have that drug addiction under control, because that 
really, I think, dictates their resistance to recidivism. That 
really gets them squared away so that the drug courts, which I 
was a big supporter of when I was in the state legislature, and 
I still am--we have veterans courts as well, that you are doing 
as well. But we really have to get the drug issue, we have to 
get them clean and in a good place so we can work on the other 
problems, and I just want to hear about your own experience in 
South Carolina and in Georgia, if I could.
    Mr. Stirling. For some folks who have drug addictions, that 
is why drug courts are so good. Chairman Gowdy knows this, but 
the prisons have drugs in them. You can get what you want in 
prison because of contraband. Everybody probably at this table 
knows this. Everybody who has ever been in a prison knows that. 
So not sending some of these folks to prison is a better way, 
and sending them to treatment.
    In South Carolina, because of costs, we give them five days 
of medicine and a 30-day prescription. What we are doing in 
South Carolina is we are hooking them up with services as they 
go out the door.
    The best thing we can do, to answer your question, is have 
a job with benefits, mental health benefits, health care, 
things of that nature. Short of that, though, what we do with 
SC Thrive is, if they are a veteran, we hook them up with the 
Veterans Administration. If they have other things that we can 
hook them up with, we do.
    This new program--and I am not a pharmacist or a doctor, 
but naproxen I think is the name of it, the shot that we are 
doing. The pill that you take every day, you can forget. So we 
are going to give them a pill, see their reaction, and then we 
are going to give them a shot out the door, and then our drug 
agency is going to work with them and follow them and give them 
a shot every six months. And from what I am told--and we did 
have some resistance internally--we made the decision that we 
were going to do it because a lot of people did not like long-
acting injectables. So we are going to follow these people and 
if it works, we are going to keep on doing it.
    Again, hooking them up with free clinics, things of that 
nature, trying to find the medication that they need. But the 
biggest thing is a job with benefits and a future and, as the 
Congressman from North Carolina said, hope and a connection 
with family, and positive reinforcement while they are out. 
Maybe it is not good to go back into your neighborhood of maybe 
Charlestown or maybe South--maybe you should move to a 
different area, because where you are, the influences are not 
good and you are going to slide back into that. Maybe move 
across the country, things of that nature. So we try to set 
them up for success and not set them up for failure.
    And if I might, just real quick, one of the things I did 
when I first took over is I went to see how we release people 
from our prison near the University of South Carolina. We 
dropped them off in a van, and I saw what happened there. Some 
of the folks were dropped off in their prison tans without the 
prison stripe, so now we have clothes closets. No one leaves 
with prison tans anymore.
    We had to hire a law enforcement officer because the drug 
dealers and some of the women of the night were there to get 
these people and put their hooks back into them. So we had to 
hire the Sheriff's Department to be there to run those folks 
off. They did not have a chance when they got off that bus.
    We also, lastly, if you are picked up by a family member, 
you get to leave on the first day possible. If you are not, you 
are going to take the bus, you are going to put yourself back 
in that environment, we have you wait a couple of days. Well, 
everybody is getting picked up by a family member.
    Some things we were doing were not making sense, and we are 
trying to look at it, use evidence-based practices to get them 
to the right treatment. Again, a job with benefits is the best 
thing that they can have.
    Mr. Lynch. Thank you, Mr. Chairman. I thank you for your 
courtesy. I appreciate it.
    Chairman Gowdy. The gentleman from Massachusetts yields 
back.
    The gentleman from Tennessee, Judge Duncan, is recognized.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and 
thank you for picking this topic to hold your first hearing 
because I think it is very important. I am sorry I had a big 
group of constituents and also had an opportunity to speak on 
the floor on a bill that I was interested in.
    I was a judge for seven-and-a-half years before I came to 
Congress trying criminal cases in Tennessee, and I have never 
forgotten the first day I was judge Gary Telic, who was the 
main probation counselor for 16 counties in East Tennessee, he 
told me, he said 98 percent of the defendants and felony cases 
came from broken homes. Well, it was not exactly accurate. What 
was more accurate was--and I do not believe it was 98 percent, 
but I went through over 10,000 cases in the seven-and-a-half 
years I was there because, as most of you know, 98 or 99 
percent of the people plead guilty and apply for probation.
    So every single day for seven-and-a-half years, I read over 
and over and over and over again, defendant's father left home 
when defendant was 2 and never returned, defendant's father 
left home to get a pack of cigarettes and never came back. 
Well, it makes an impression on you. And I can tell you I 
remember several years ago when I was still in Congress, one 
Friday afternoon I missed the direct flight out of National 
Airport and I had to drive to Dulles Airport one Friday 
afternoon, and the 3:00 national news came on. There had been a 
school shooting by some 14-year-old boy or something, and they 
had the national head of the YMCA on the radio, and he said 
children are being neglected in this country like never before.
    And I thought, boy, how sad it was to say something like 
that. But somehow or another, we have got to get out that, 
especially young boys cannot raise themselves. I read that 80 
or 85 percent of the babies that are being born in some of our 
biggest cities are born out of wedlock. I know that drugs and 
alcohol are involved in most of these cases, but they all seem 
to be secondary to that father-absent household. I think I 
could go to any 4th grade class or 6th grade class in an 
elementary school in this country, and if I found out the 
family situation of these kids, I could tell you which ones 
were most likely to get into trouble. And every time I read 
about one of these boys pursuing one of these mass shootings in 
someplace, like in Connecticut or this one I mentioned, which I 
think was in Oregon, or all over, you read about those kids and 
they come from dysfunctional families.
    So I think we need to do all kinds of things. I think we 
need to get more males teaching in the elementary schools, 
because so many boys are growing up without a good male role 
model. I would like to see more boys get into Boy Scouts.
    This is a national crisis, and it is the root of our crime 
problem, in my opinion. It seems to me there are just a lot of 
things that we need to do.
    I started when I was judge a program called--I called it 
Court Counselors, and I got the churches involved, and I got 
them to do it on a volunteer basis. I said most of these young 
men, they have almost never sat down with a family to have 
supper. I said if you just have once a month, or more often if 
you can do it, but at least once a month, have them to your 
house to have supper with the family. It is really sad what I 
am seeing.
    And then we need to separate these non-violent people away 
from the violent people in these prisons.
    But I am supporting some of these efforts on some of these 
criminal justice reform bills, and I sure hope we can move on 
that. I just wanted to say a few things like that, Mr. 
Chairman. I will work with you any way that I can on this 
because it is a subject of great interest to me.
    Chairman Gowdy. I thank the gentleman from Tennessee. Not 
only is it a great subject of interest, you are also an expert 
in the field and we appreciate your perspective.
    The gentle lady from Michigan, Ms. Lawrence, is recognized.
    Ms. Lawrence. Thank you, Mr. Chairman. I, too, join my 
colleagues in congratulating you in your position of leadership 
and look forward to working with you.
    I have consistently said that in America, I still believe 
in the American Dream, that ladder to success. That first wrung 
is education. If you do not educate a child, how can you expect 
them to climb the ladder of success or opportunities in 
America? If you do that, you are limiting that child's success, 
and prison, unfortunately, is one of the limited choices they 
have.
    A 2013 RAM report stated that inmates who participate in 
correctional educational programs, correctional programs, have 
a 43 percent lower odds of reentering prison than those who do 
not.
    So, Judge Williams, have you seen efforts to educate 
prisoners increase proportionately to the massive growth in the 
prison population? Have you seen an impact?
    Judge Williams. Let me say I certainly agree with you that 
education is the key, and also dysfunctional families that the 
Congressman talked about. Certainly all of that contributes to 
criminal activity and behavior.
    But I want to go back to something that you said. The 
failure to have access to appropriate education is the key.
    Ms. Lawrence. Yes.
    Judge Williams. There are a number of youngsters in schools 
who are not being taught properly. They have lost interest, and 
sometimes the school system is responsible for what results in 
them getting involved in criminal behavior later.
    Now, in terms of the prison, in my state, of course, not 
enough across the years has been given by way of funding for 
enough programs to educate and prepare inmates for the new 
types of jobs that are out here in the world. So that is 
something that has to be a focus, and I certainly agree with 
you that education is the key, and training.
    Ms. Lawrence. Well, I just want to take a few minutes to 
compliment the governor that, sitting right here in this chair, 
I have not had very good things to say, but my governor in 
Michigan has taken skill trades, which he and I partner on, and 
he has started a virtual welding program in prison. If you are 
eligible for a non-violent probation from prison--and there are 
job offers being offered to the prisoner before they even 
leave. Can you think of the opportunity of a person who has 
been incarcerated that is guaranteed a job, that has a skill, 
that you know for a lifetime will be able to work? Those type 
of programs are game changers, and we need to step up.
    Mr. Chairman, I am telling you, we can make a difference in 
America with stopping this industry of private prisons, because 
the only way that they are profitable, they have to fill the 
cells. But if we get into the proactive mode of finding ways to 
stop it, we can make a difference.
    I have one question for Mr. Stirling. In your written 
testimony you indicated that under the Second Chance initiative 
Northwestern College was selected as a pilot site where Pell 
Grants would be available to offenders. Can you explain how it 
works, and is it working, and what are the benefits of that, 
and have we expanded beyond the pilot?
    Mr. Stirling. Sure. So, we have not expanded beyond the 
pilot because it is fairly new. What we did is we picked a 
character dorm where the offenders live amongst themselves. 
They are held accountable by themselves. Just recently I 
received an email from Sandy sitting behind me that 10 of the 
folks that are in that program were either on the Dean's List 
or the President's List.
    Ms. Lawrence. Wow.
    Mr. Stirling. So, that is great. If I can briefly go back, 
in South Carolina we are teaching welding. Somebody just 
donated forklifts because warehousing is big in South Carolina. 
So they are going to learn and get their certification in 
forklifts, brick mason, things of that nature, plumbing. We 
teach and do all that stuff for people that are leaving and 
people that are there so we know when they leave they will be 
prepared. As a plumber, they will make twice as much as a 
lawyer would make by the hour.
    Ms. Lawrence. Exactly. This is where we need to move as a 
country. If we say you are going to do your time and pay for 
the crime that you commit, we should be committed to ensuring 
that this person does not return. If they commit the crime, 
yes, they should return. But how can you expect someone who 
knows how to be a criminal--they have proven it because they 
have been arrested and tried. They know how to commit crime. 
But if you really say the correctional system is to reform and 
to release a person back into society that will not be a 
prisoner anymore, then we have some responsibility.
    I yield back my time, and thank you, thank you for having 
this hearing.
    Chairman Gowdy. Yes, ma'am. The gentle lady yields back.
    I will now recognize the gentle lady from New York. I would 
tell my friend from New York, I think they are going to call 
votes in a couple of minutes. I am going to try to get my 
friend from Florida and my friend from the Virgin Islands in 
before I go so they can all go and I will be late for votes and 
not you all.
    So, with that, you are recognized.
    Ms. Maloney. First of all, thank you, Mr. Chairman, and 
congratulations on your appointment.
    And to the panelists, I have been listening in the back 
room and listening here too, and many of you bring a lot of 
experience on an incredibly important issue.
    Judge Williams, you recently chaired a working group 
convened by the Republican governor of Maryland, Larry Hogan, 
to examine the collateral consequences of imprisonment and 
criminal convictions. The working group issued its final report 
in December, and according to the report, and I quote, ``The 
American Bar Association's National Inventory of the Collateral 
Consequences of Convictions has cataloged more than 38,000 
collateral consequences of criminal convictions, which include 
denial from public housing and public assistance, deportation, 
disenfranchisement, licensing or employment restrictions in a 
variety of occupations.''
    Judge Williams, can you discuss how collateral consequences 
affect returning citizens' ability to provide for themselves 
and their families?
    Judge Williams. Certainly there have been a lot of studies 
around the country on the collateral consequences affecting 
persons returning back to the community. But there are a number 
of barriers imposed on individuals who are returning such as, 
again, trying to get licenses and other vocations to get 
involved in. In my state, my report focused on people who were 
embalmers and people who were pest controllers who needed to 
disclose their record in order to get a license, so that has 
been a problem.
    Of course, there has been discrimination against persons 
trying to get adequate housing. They have not been able to get 
Pell Grants, and there are a number of employers around who are 
simply afraid of hiring a person for fear of litigation and 
other kinds of things against them.
    We can certainly talk about voting rights. They have also 
been denied civil rights associated with that.
    So there are a host of collateral consequences imposed on 
people with records, and my position has always been that we 
can promote less recidivism if we come up with programs that 
are going to assist persons to make an adequate transition back 
to the community.
    Ms. Maloney. You have done this work on these current 
blanket bans. Would waiting 10, 20, even 30 years from the time 
of conviction, or even of release, to apply for a professional 
license or permit be long enough to make an ex-offender 
eligible for employment in these categories?
    Judge Williams. What is the question?
    Ms. Maloney. They have these blanket bans where they ban 
them ----
    Judge Williams. Yes. Those are permanent.
    Ms. Maloney. They are absolutely permanent.
    Judge Williams. Absolutely ----
    Ms. Maloney. So you could be out 30 years and be a good 
person and have a record of good work, and you still are 
blanket banned.
    Judge Williams. Absolutely, and the good news is that our 
state, of course, we think we are progressive, but this task 
force has dealt with that and encouraged the General Assembly, 
the state General Assembly to look at those blanket bans and 
permanent disallowance to see if they can do something about 
that. But that is one of our recommendations that came out of 
that task force report.
    Ms. Maloney. Yes, that is an important one.
    Now, could you also talk about the rights restoration 
certificates? Explain how these work and how can they help ex-
offenders stay out of prison.
    Judge Williams. Yes. One of our recommendations was to have 
a group and an entity assess the progress that returning 
citizens are making. Once our organization or our entity or 
this department issues a certification that they are making 
progress, that the likelihood of them perpetrating another 
crime is excellent, then they get the issuance of a certificate 
which will be in the hands of employers and that would probably 
likely cause them to hire them.
    Ms. Maloney. Well, I think all of your testimony, your 
ideas are good ones. I think we should look at them. I know 
that this was a top concern of Ranking Member Cummings. I just 
talked to him on the phone and he was so interested to hear 
what is happening in the committee, but also President Obama 
did a lot of work and studies on prison reform, and I want to 
thank you for what you are doing. I think it is tremendously 
important. We have to help people, once they get out, stay out, 
and you certainly cannot help them if you are banning them from 
all types of employment.
    What was your recommendation on voting? I mean, they take 
away the voting rights, too. Were you recommending that people 
be able to vote?
    Judge Williams. Well, we had not addressed that yet. That 
is in, hopefully, a Phase II.
    Ms. Maloney. That is Phase II. Okay.
    My time has expired.
    Judge Williams. This was mostly vocational and occupational 
licensing.
    Ms. Maloney. Okay. Well, my time has expired. Thank you.
    Chairman Gowdy. The gentle lady from New York yields back.
    WE have a prosecutor and a former police chief left. You 
all are used to working together. I will let you continue to 
work together, and you can apportion time however you want. I 
am going to go last. I think they are about to call votes.
    Ms. Plaskett, I think you are technically up first, but you 
all can do what you want with the time.
    Ms. Plaskett. Thank you. I will be very mindful of the 
time. Thank you, Mr. Chairman.
    And thank you, witnesses, for being here.
    In 2013, former Attorney General Holder issued a memo to 
Federal prosecutors urging them to ensure that our most severe 
mandatory minimum penalties are reserved for serious high-level 
of violent drug traffickers. The Holder Memo, as it was called, 
was guidance that in cases involving applicable Title 21 gave 
prosecutors discretion to make a, quote, ``individualized 
assessment and fairly represent the defendant's criminal 
conduct.''
    Judge Williams, I am so glad to have you here. What 
improvements did Attorney General Holder's charging policy make 
in the criminal justice system?
    Judge Williams. Certainly once that edict came down, the 
Federal prosecutors in my jurisdiction had a little more 
authority to offer pleas that did not involve mandatory minimum 
sentences. So everyone essentially was pleased with that. I do 
not have any statistics before me, but I know that the severity 
of penalties and the long sentences were decreased with that 
edict.
    Ms. Plaskett. Thank you. On May 10th of this year, Attorney 
General Sessions rescinded that policy and issued a memorandum 
that directed all Federal prosecutors to charge and pursue, 
quote, ``the most serious offenses that carry the most 
substantial guideline sentence, including mandatory minimum 
sentences.''
    Judge Williams, in your experience, why is charging the 
most serious offense not always the most effective way to deter 
crime?
    Judge Williams. Yes. Again, I think that is misguided and 
is just not appropriate in every case to direct prosecutors to 
charge the most serious offenses. Again, every case is 
different, and there ought to be an easing of that philosophy, 
and I just disagree with whatever that edict is.
    Ms. Plaskett. Thank you. You know, I as well have been a 
prosecutor at a local level in the Bronx District Attorney's 
Office in New York City, and then at main Justice, working at 
the Justice Department, and it is my belief that this memo 
sends a chilling effect on our justice system both at a 
prosecutor's level, to make prosecutors go after the most 
serious charge, but also sends a message to policing as well in 
terms of criminals and how police are going to be handling the 
individuals that they encounter on the street and what the 
message is from the highest level of law enforcement.
    I talked with our chairman quite often about the fact that 
being a prosecutor was, to me, one of the most wonderful jobs 
that I had. It was a dream of mine. I come from a long line of 
law enforcement officers. My grandfather, my father were police 
officers, uncles, and I had to leave that job because I got 
tired of every day looking across the courtroom and seeing what 
looked like myself, seeing my sons, in essence, every day, and 
having to issue some of the most harsh charges on the people 
that I now represent, people that look like myself, people with 
names like John and Russ and Edmond, names that families have 
given their sons because they believe in them, names that I 
have given my own sons.
    I have four sons, and every day things like this from Jeff 
Sessions is really an indictment against my own sons, and I 
take that as a charge against them and those who look like them 
that says to scoop them up and put them away, and that is the 
way we are going to deal with individuals who look like that.
    I am really grateful that we are having this discussion. I 
am thankful that my colleagues across the aisle were willing to 
listen, to come up with solutions, not just for what happens in 
prison but before that. It is not just criminals that are 
scooped up. Many of us who have young black men as children, we 
give them--and I am going to use this term--they are going to 
get their Negro wake-up call, because as much education as they 
have, whatever they look like, as much middle-class as their 
families look like, they can be scooped up by the police just 
because of what they look like, and it has happened to all of 
us at one point or another.
    So I yield back the balance of my time, and I thank you, 
Mr. Chairman, for allowing us to have these discussions.
    Chairman Gowdy. The gentle lady from the Virgin Islands 
yields back.
    The gentle lady from Florida is recognized.
    Ms. Demmings. Thank you so much, Mr. Chairman, and 
congratulations to you.
    And thank you to all of our witnesses, and thank you for 
the outstanding work that you are doing.
    I spent 30 years in law enforcement, and I will be one of 
the first to say that the criminal justice system, like other 
systems, definitely needs to be improved. But I also know from 
my own personal experiences that many times we ask the criminal 
justice system to do too much. We ask prisons and jails and 
even law enforcement to deal with issues that they were never 
designed to deal with, even though there are an array of issues 
that fall in that category. Mental health is certainly one of 
them.
    The Urban Institute did a study and found that 45 percent 
of Federal prisoners, 64 percent of jail inmates, and 56 
percent of state prisoners have mental health problems. There 
was a sheriff of Marion County, Indiana, who raised the issue 
during a meeting with President Trump recently, and he said 
this, and I quote: ``There are people with mental illness who, 
for lack of a better term, are warehoused in our jails across 
America because we do not have the facilities necessary to take 
care of them.'' That is a sad statement.
    We also know that studies show that ex-offenders who are 
homeless are seven times more likely to re-offend.
    The bipartisan 21st Century CURES Act enabled during the 
last Congress reauthorized the Adult and Juvenile Collaboration 
Program and authorized $50 million annually through Fiscal Year 
2021. The Act also expanded authorized activities under this 
program, including allowing grants to be used to provide a 
broad array of services to incarcerated individuals, including 
crisis response.
    However, this program has not been funded at authorized 
levels in recent years, and President Trump's budget continues 
that trend by requesting only $10 million for this program.
    Judge Williams, I would like to start with you. I know we 
have talked about a lot of things and you may have already 
talked about it, but what are some of the ramifications that 
you see as it pertains to recidivism and other issues when 
programs like this or funding like this is cut that so help to 
uplift those who have been incarcerated? And anybody else that 
would like to respond as well. Thank you.
    Judge Williams. I will just start off by saying cutting 
these programs is certainly not helpful for the entire idea of 
reducing massive incarceration. There are just a number of 
different factors that you have to take into consideration, the 
poverty, the family dysfunction, lack of access to appropriate 
education, and even the environment. All of those things need 
to be addressed, and I think proper funding would certainly 
help.
    I want to say one other thing. We all are getting concerned 
about the increased indictment of law enforcement officers 
around the country right now, and that is a real problem for 
persons like myself who have been prosecutors because in 
arguing to juries, we want to make sure we have people with 
integrity, and that lack of credibility is becoming a problem. 
So it is going to invest itself in the criminal justice system. 
That is a problem also that we really have not addressed 
adequately.
    Ms. Demmings. Thank you.
    Any others?
    Mr. Stirling. One thing I would like to talk about that we 
use through the Department of Justice is training our officers 
CIT, crisis intervention, how to deescalate a situation. When 
the mental health case came out and we started training 
officers, I think we have, I am going to guess, around 200 to 
300 officers who can then take over a situation, even if they 
are not the highest ranking officer, and they know how to 
interact. It is a 40-hour class. We put a placard on them, and 
they are the folks who come in and help deescalate a situation. 
In the first weekend we talked an offender out of swallowing a 
razor blade. The officer went home safe, and that offender went 
and got mental health treatment and is alive today. That would 
have been a great cost to the state, and that officer could 
have been imperiled.
    So the CIT training is great. I have not read the budget, 
so I do not know about that, but this was a program that was 
offered to us, and we took advantage of it.
    Ms. Demmings. Thank you.
    Mr. Chairman, I yield back.
    Chairman Gowdy. The gentle lady from Florida yields back.
    The Chair will now recognize himself.
    Bryan, I have told you on countless occasions you have the 
hardest job in all of law enforcement in South Carolina, and 
you do it so well. One thing I am so happy about today is you 
and your co-panelists are getting credit for trying to solve 
very, very difficult challenges.
    You also were a prosecutor in a former life, and it strikes 
me--you tell me if I am wrong--it is tough to get a conviction, 
especially a jury trial, beyond a reasonable doubt. Twelve 
folks, hard to get them to agree. So what happens sometimes is 
you will take a plea to probation because it is so much easier 
to revoke probation in front of a judge later on. You get the 
same result. You go to the Department of Corrections. You just 
get to bypass the difficulty of a jury trial.
    How do you see most of the probation revocations coming in 
to the SEDOC, and what can we do at that stage to kind of limit 
the in-flow into your facilities?
    Mr. Stirling. Sure. So, one of the things that came from 
the legislation, the sentencing reform oversight, was how 
people were revoked, and that is one of the reasons that, 
number one, we are not sending as many people to prison, but we 
are also not revoking for technical violations.
    I spoke with Jerry Adger, who used to be my Inspector 
General of the police force. He was a former SLED agent, South 
Carolina Law Enforcement Division, and during his testimony 
last year he said we would go tell someone they had to pay 
their fees or you are going to jail, and if they could not pay 
their fees, guess what? We were furthering criminal activity, 
because they would go find the money another way.
    So we work with them and find ways to work out the fees 
that they have to pay, and sometimes if we have to waive the 
fees so we do not send someone back to prison, that is what we 
do. But they try to do everything they can to avoid sending 
folks back to prison.
    With our youthful offender program, the one that used to be 
50 percent recidivism, now it is 22 percent, we have graduated 
responses. We can put an ankle bracelet on. We can do more 
checks. We can say you cannot go to this area. We can say you 
have to get a job, or we can bring them back for a time and 
then they leave, and we are seeing the success of that also.
    Chairman Gowdy. Something was touched upon, I think it was 
Mark Walker from North Carolina, which is the perception of the 
broader public of criminal justice reform in general. I do not 
think you and I are going to be accused of being soft on crime, 
and we talk about it, given what we did in previous lives. But 
there is a perception, and sometimes, because we live in a 
culture that is kind of dominated by episodes, you can have 90 
percent of the people successfully part of a program, but that 
one episode where there is a recidivist or another crime 
committed tends to impact public perception.
    So what would you say to our fellow South Carolinians as a 
former prosecutor who is not soft on crime how not to be swayed 
by episodes of failure but to go ahead and pursue both the 
diversion programs on the front end--I am sure you had a tough 
time explaining to the victims of crime why someone was out on 
bond, particularly if they had a bunch of charges pending.
    So what would you say to the broader public about why it is 
still worth pursuing diversion programs, reentry programs, 
criminal justice reform, despite the fact that we are going to 
have episodic failures?
    Mr. Stirling. Well, as a grandson and a great-grandson of a 
police officer, and as a victim of a crime by someone who was 
out on bond and had been convicted before who broke into my 
house, I too understand being a victim, but it is balancing. In 
South Carolina, a very fiscally conservative state, saving 
those tax dollars and seeing the recidivism rate go down, not 
spending the $20,000 a year, and also the public safety--our 
crime rate is down, and I think it is because of what we are 
doing. I think it is also because of employment, 4.1 percent 
employment. It is a magic bullet. When someone is working and 
participating in society, as they are doing in Georgia and 
other states, I think that works.
    Education. Tenth grade is the average education level of 
folks that come to the Department of Corrections. So getting an 
education, and maybe it is not college. Maybe it is a technical 
school, and you can start a job, and you can start a business, 
and you can grow it from there. I just had my air conditioner 
replaced. I know how much an AC repairman makes. I mean, it is 
a substantial living.
    Chairman Gowdy. This is my last question, and then we will 
go to the gentleman from Wisconsin.
    There has been some discussion with, I know, Senator 
Booker, Senator Johnson from the great State of Wisconsin. It 
is bipartisan, what some people refer to as Ban the Box. There 
is, Judge--I think you will appreciate this--there is a body of 
research that it actually, at least in one study, had a 
disparate effect on the very group that we are seeking to help. 
And even if that one study is an anomaly, I am a little bit 
concerned that some of the Ban the Box legislation does not 
have relief for negligent hiring. That is still a civil cause 
of action that you can pursue against someone for negligent 
hiring if they fail to ask.
    So it is not really a question as much as particularly, 
Your Honor, you are an academic now, in addition to being a 
jurist. If any of the four of you have ideas on how to both 
solve that negligent hiring aspect and also deal with that one 
study out there that says that it really has a disparate impact 
on communities of color despite the fact that that is the 
opposite intent from what the legislation is, well-intentioned 
but still hurting the cause is not good.
    Yes, sir?
    Mr. Stirling. I can give you a quick question. We have a 
need for truck drivers in South Carolina, and I have had 
conversations with many truck drivers and many folks that were 
defense attorneys in the insurance industry, and one of the 
things that will come into court is if you are driving a truck 
and you hit someone, your record is going to be used against 
you. I have had conversations with legislators saying if it was 
not a driving charge and it did not affect, why should that 
come in as evidence in court? But I understand why insurance 
companies and businesses would have a concern.
    So that is not a Ban the Box, but it is an example of 
problems. We are still going forward and are going to train on 
that because there are companies that are willing to hire, but 
they will probably have to pay higher premiums because that 
will come into a court case, which is not really fair.
    Chairman Gowdy. You are right, it will.
    Judge Williams. Mr. Chairman, briefly, that is a real issue 
that you raise, the whole question of personal liability that 
the companies have, and I think the state legislatures are 
going to have to move to immunize those particular companies 
that reach out and employ returning citizens. They have to give 
them the leverage to do that.
    And also, we need to come up with some other incentives to 
give to employers to make sure that they will be receptive to 
hiring people with records. But that is a real issue that has 
to be addressed.
    Chairman Gowdy. Yes, sir.
    The gentleman from Wisconsin.
    Mr. Grothman. Thank you.
    Ms. Norton. Mr. Chairman, could I ask a question? Because I 
raised this issue initially. I wonder if this disparate effect 
is because, while you do not know about the record, but the 
person has applied, so you know the race. So the reason for the 
disparate effect or the failure to hire may really be race and 
not the record of the ----
    Chairman Gowdy. That is exactly what that study indicated, 
but it has a negative impact on one of the very groups that you 
would be seeking to help. So again, under the heading ``well 
intentioned,'' but this study may be an outlier. It may not be 
accurate. The judge is now an academic, it there may be five 
studies that debunk that one study. I do not want us to go down 
a road, if there is a way to fix that, without having 
unintended negative consequences. But the lady from the 
District of Columbia is right, it was race related, and that is 
what the study found.
    The gentleman from Wisconsin.
    Mr. Grothman. Before I ask a question, I would just like to 
make a statement. There was a comment made earlier today kind 
of pooh-poohing or saying it is no big deal on non-violent drug 
crimes. In my district I have a heroin problem. Part of that 
heroin problem is fueled, I believe, by prosecutors and judges 
in a county south of mine, Malaki County, who apparently think 
that if someone is caught selling heroin, it is not that big a 
deal. I think in this country every year thousands of people 
are dying of opioid abuse, and there are a variety of things 
that can be done to prevent it, but one of the things that I 
think is encouraging it is people who put this idea out that 
selling of drugs is a victimless or harmless crime. Thousands 
of people are dying of this harmless crime, and I strongly 
disagree with my colleague who kind of implied that if you put 
somebody in prison for trying to sell heroin, it is no big 
deal. It is a big deal. A lot of people are dying because of 
that.
    Now, Mr. McGahan--am I pronouncing that right?
    Mr. McGahan. Yes, sir, pretty good.
    Mr. Grothman. You brought up something before that I 
sometimes think is interesting. You mentioned the degree to 
which people almost do not work because of the size of 
garnishes for child support. Is that true?
    Mr. McGahan. Yes, sir.
    Mr. Grothman. There is something in the past, about 20 
years ago, around here called the Bradley Amendment, I think 
about 20 years ago, that in essence said that even if child 
support is assessed wrongly, once it is assessed, you cannot 
undo it. Are you familiar with that?
    Mr. McGahan. I am not familiar with that amendment. No, 
sir.
    Mr. Grothman. Okay. Well, in any event, you are conscious 
of the fact that sometimes child support gets so--the debt is 
so great that ----
    Mr. McGahan. Insurmountable.
    Mr. Grothman. Yes, insurmountable. You get to the point 
where it puts a strong disincentive to work legally. I guess I 
will put it that way.
    Mr. McGahan. No question about it. People come in and they 
cannot work in payroll jobs, so they have to work in under-the-
table jobs or they have to engage in illegal activity.
    Mr. Grothman. Good. I wish you would follow up on that 
somewhere and maybe you can educate some people around here.
    Next question I have, you are always looking at the cause 
of crime, and I know a lot has been written about, or at least 
people keep track of race and imply that that might be a factor 
in incarceration or a factor in whatever. But I wondered, as 
far as family background is concerned, do we have any studies 
related to that that any of you folks are keeping track of?
    Mr. Stirling, do you keep track of that in the South 
Carolina Department of Corrections?
    Mr. Stirling. We do not, but one thing that was mentioned 
when Mr. Duncan came in was the need for a parent. One of the 
reasons I think we are seeing such success with our youthful 
offender program is these youthful offender officers, it is a 
1-to-20 ratio. They get to know these folks that are under 
their supervision, and they are there to help them, but they 
are also there to keep them accountable. They do not want to 
disappoint--they become mentors, and I think they become 
mentors for life because a lot of folks who end up in prison 
just do not have a positive role model, and these folks that 
are giving their time and their life, because it is not just a 
9-to-5 job. They are doing it on weekends, they are doing it at 
night, middle of the night.
    It is such a good program that some of the families now 
come to our officers and say my mother needs help with this, 
where can she go?
    Mr. Grothman. Okay. I will look at it both ways for you, 
Mr. Stirling, and maybe suggest in the future you do keep track 
of these statistics because they might be illuminating, and for 
whatever reason, political correctness or otherwise, I know in 
Wisconsin we did not keep track of this stuff either. But you 
might want to maybe just for one prison keep track of it so we 
find things out.
    I am not only talking here about the parental background of 
the people but, say, people who are convicted of a crime, say 
at age 25, at age 30. Do you compare, say, for men, the 
percentage of men who are committing crimes who are, say, 
married with children and those that are single or are not 
connected with their children?
    Mr. Stirling. We do. I do not have those in front of me, 
but I know we do a very comprehensive review and interview when 
people come in to try to find everything out about them when 
they do come in, education and things of that nature.
    Mr. Grothman. Why don't you get back to us? Because I am 
under the impression that a benefit of families is not only for 
the children but sometimes for the parents, and I have a 
feeling that if you check--I have no idea, I have never seen 
this study--that you go through all the people in your prison 
system and for an age group 30 to 35 or whatever, compare men 
who are married with children compared to men that either have 
no children or are unconnected with their children and see what 
sort of statistics you can drum up there. Can you do that for 
us?
    Mr. Stirling. Yes, sir.
    Mr. Grothman. That is going to take a lot of work.
    Mr. Stirling. That is fine, sir.
    Mr. Grothman. It will be cutting edge.
    Thanks much.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Alabama has made a Herculean effort to 
come. I just heard the buzzer. I think we have time, given the 
fact that you are so interested in this issue and made such a 
great effort to get here.
    We will recognize the gentleman from Alabama, and then we 
will break.
    Mr. Palmer. Thank you, Mr. Chairman. I am sorry I had to 
leave. We have this whole issue of the budget going on. It is 
fairly important.
    A couple of things, Mr. McGahan. What are some of the major 
obstacles that the states impose on you to helping individuals 
who are exiting prison to find work?
    Mr. McGahan. When a person gets out of prison, a couple of 
things. First of all, for some folks, they do not have their 
driver's licenses, and they will get state-issued I.D.s. When a 
person goes in and tries to get a job, they have to give their 
I.D., and it says Jackson State Prison, and they immediately do 
not get the job. So having an identification or a driver's 
license that has nothing to do--that shows their background, 
that is an impediment to work.
    I think the second thing that we can do is we can raise the 
level of garnishments that poor people who have past-due child 
support, that is a huge barrier for them to get a job. So if we 
can eliminate that barrier, they will get work.
    And then the last thing that was mentioned before, the 
biggest thing that makes families stay together is when a man 
has a job. If a man has a job, we find that almost immediately 
that family, he gets involved in his child's life, he will get 
reconciled with the mother, and when he does not have a job and 
is living a destructive lifestyle, he is rightfully oftentimes 
pushed away from that child.
    So having employment while eliminating the barriers, 
changing his habits, and then getting a job will fix almost 
every problem.
    Mr. Palmer. When you talk about eliminating the barrier of 
child support and the garnishments and issues like that, that 
is a delicate balance that you are trying to do there where the 
state, I think, could be helpful to make sure that an 
appropriate amount of support is being provided to his 
dependent family members, but also not disincentivizing the 
individual from getting a job or seeking employment where he is 
basically paid a cash wage that is not subject to garnishment. 
Do you see that pretty much across the board nationwide? Is 
that a bigger problem in certain places than others?
    Mr. McGahan. I think it is a national problem. When I talk 
to my colleagues from other states, almost everyone will say 
one of the biggest problems that men face to get employment is 
eliminating wage garnishments. The problem is not that they do 
not owe the money, and we do not want to incent them to walk 
away from their responsibilities, but it is a question of 
balance of when they kick in. Having the ability to keep more 
dollars that they earn and to pay their own way, the ability to 
pay their own rent will go a long way to getting him into an 
employer, getting a career going, be valued in the workplace. 
We are putting work, we are valuing work over everything else, 
and that will reconcile the family.
    But right now I think the garnishments kick in too low, and 
that creates a barrier for him to seek employment.
    Mr. Palmer. Let me suggest that--and this might be of 
interest to all of you--that during the Bush Administration, 
Dr. Horn, Deputy Secretary of Health and Human Services, 
oversaw a program called the National Fatherhood Initiative 
where that was the very focus, to try to reconnect these men 
with their families, and it was very successful. I think that 
is something that might be useful to revisit at the state level 
as well as the Federal level, Mr. Chairman.
    One last point. One of the things that--I ran a think tank 
in Alabama, and one of the things that we were seeing is that 
about 60 to 68 percent of the inmates were high school dropouts 
regardless of race or gender. As has been pointed out, about 
90-something percent of them are eligible for parole. Alabama 
has a prison crowding problem. We do not want to just release 
those back into prison.
    Have you given much thought to utilizing the Internet to 
allow these inmates to earn a high school diploma? Or if they 
have graduated high school, to earn an Associate or technical 
degree so that when they get out of prison, they have 
employable skills? Network them with businesses where it does 
not matter that that box is checked, and with a support group 
that helps them be reintegrated into society.
    Mr. McGahan. Yes, there are businesses that do that, and I 
think that is a tremendous idea. The one other piece is the 
habits of the person. So we have to eliminate the barriers, we 
have to get them skills, and then we have to change their 
habits, increase reliability for the employer, get them to show 
up at work on time, make sure they do not have an addiction, 
and if we can do those three things, then we will have a 
reliable person to continue on with their lives.
    Mr. Palmer. Thank you for allowing me to ask questions, Mr. 
Chairman. I yield back.
    Chairman Gowdy. I thank the gentleman from Alabama for 
making the effort to come back despite a very hectic day.
    I want to end by thanking the four of you for your 
collegiality toward one another and toward the members of the 
committee, your comity, with a ``T'', toward one another, and 
the committee.
    I also want to thank Cory and Tim, the panel before you, 
for coming. I hope you can tell from the member interaction 
that it is an issue that, while we may not agree on every facet 
of it, people are interested in it. We value your perspective 
and, frankly, we have benefitted from it today. So, thank you.
    If there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 4:33 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
